<html>
<title> - STRENGTHENING THE MIDDLE CLASS: ENSURING EQUAL PAY FOR WOMEN</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                    STRENGTHENING THE MIDDLE CLASS: 
                      ENSURING EQUAL PAY FOR WOMEN 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 24, 2007

                               __________

                           Serial No. 110-24

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                     U.S. GOVERNMENT PRINTING OFFICE

34-632 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001
      











    











                     COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Bob Inglis, South Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Timothy H. Bishop, New York          Kenny Marchant, Texas
Linda T. Sanchez, California         Tom Price, Georgia
John P. Sarbanes, Maryland           Luis G. Fortuno, Puerto Rico
Joe Sestak, Pennsylvania             Charles W. Boustany, Jr., 
David Loebsack, Iowa                     Louisiana
Mazie Hirono, Hawaii                 Virginia Foxx, North Carolina
Jason Altmire, Pennsylvania          John R. ``Randy'' Kuhl, Jr., New 
John A. Yarmuth, Kentucky                York
Phil Hare, Illinois                  Rob Bishop, Utah
Yvette D. Clarke, New York           David Davis, Tennessee
Joe Courtney, Connecticut            Timothy Walberg, Michigan
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 24, 2007...................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     5
    DeLauro, Hon. Rosa L., a Representative in Congress from the 
      State of Connecticut.......................................     6
        Prepared statement of....................................     9
    Hirono, Hon. Mazie K., a Representative in Congress from the 
      State of Hawaii, prepared statement of.....................     5
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     3
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia.......................................    10
    Pelosi, Hon. Nancy, Speaker, U.S. House of Representatives, 
      prepared statement of......................................     4

Statement of Witnesses:
    Boushey, Heather, senior economist, Center for Economic and 
      Policy Research............................................    28
        Prepared statement of....................................    29
    Farmer, Dedra, former Wal-Mart employee......................    21
        Prepared statement of....................................    22
    Furchtgott-Roth, Diana, senior fellow, Hudson Institute......    23
        Prepared statement of....................................    25
    Hill, Catherine, Ph.D., director of research, American 
      Association of University Women............................    16
        Prepared statement of....................................    18

Additional Submissions:
    Business and Professional Women/USA and Business and 
      Professional Women's Foundation, prepared statement of.....    60


                    STRENGTHENING THE MIDDLE CLASS:
                      ENSURING EQUAL PAY FOR WOMEN

                              ----------                              


                        Tuesday, April 24, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:35 a.m., in Room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, Hinojosa, Tierney, Kucinich, Wu, Holt, Davis of 
California, Bishop of New York, Sarbanes, Sestak, Loebsack, 
Hirono, Clarke, Courtney, Shea-Porter, McKeon, Petri, Platts, 
Wilson, Kline, Fortuno, Boustany, Foxx, Kuhl, and Walberg.
    Staff Present: Mark Zuckerman, Staff Director; Alex Nock, 
Deputy Staff Director; Brian Kennedy, General Counsel; Jeffrey 
Hancuff, Staff Assistant, Labor; Michael Gaffin, Staff 
Assistant, Labor; Lynn Dondis, Policy Advisor for Subcommittee 
on Workforce Protections; Jody Calemine, Labor Policy Deputy 
Director; Jordan Barab, Health/Safety Professional; Thomas 
Kiley, Communications Director; Megan O'Reilly, Labor Policy 
Advisor; Rachel Racusen, Deputy Communications Director; 
Michele Varnhagen, Labor Policy Director, Aaron Albright, Press 
Secretary; Tylease Alli, Hearing Clerk; Victor Klatt, Minority 
Staff Director; Robert Borden, Minority General Counsel; Steve 
Forde, Minority Communications Director; Ed Gilroy, Minority 
Director of Workforce Policy; Rob Gregg, Minority Legislative 
Assistant; Jim Paretti, Minority Workforce Policy Counsel; 
Molly McLaughlin Salmi, Minority Deputy Director of Workforce 
Policy; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller. The Committee on Education and Labor will 
come to order for a hearing on ensuring equal pay for women.
    At the outset of this congressional session, we made it 
clear that the interest of this committee was in growing and in 
strengthening the middle class, and as we know, the 
participation of women in the workforce is a major component of 
that, but also the idea that women would be paid fairly and 
equally is also a component of that, so it is with that in mind 
that we conduct this hearing.
    Since the signing of the Equal Pay Act over 40 years ago, 
tremendous progress has been made by women in the workplace. 
Women are leaders in business, government and academia. For the 
first time in history, a woman is serving as Speaker of the 
House of Representatives. Yet, despite the progress that women 
have made, they continue to be held back by wage 
discrimination. Today is National Equal Pay Day. Each year, 
equal pay day signifies the number of days into a new year that 
women have to work before earning what men earn by December 
31st. It is appropriate that we hold this hearing today to 
examine the issue of gender pay inequality in this country and 
consider the impacts that the wage discrimination not only has 
had on women but on families, communities and the Nation as a 
whole.
    This issue is one of basic fairness. Women should receive 
equal pay for equal work. Yet, research clearly demonstrates 
that women earn less than men for equal work. Yesterday, the 
Association of the University Women unveiled their study on pay 
for college graduates. We will hear from one of today's 
witnesses, Dr. Catherine Hill, about this study in more detail, 
but I want to know its key conclusions. 1 year out of college, 
women earn approximately 80 percent of what men earn. 10 years 
out of college, women fall even further behind, earning only 69 
percent as much as men earn. This disparity in wages exists 
across all occupations and is well-documented at the 
educational levels. In 2005, the median weekly wages earned by 
women physicians were just 61 percent of the median weekly 
wages of their male colleagues. Women in sales-related 
occupations earned only about 63 percent of the median weekly 
wages of men in the equivalent positions. This pay also means 
women are less likely to have retirement security. Even when 
women have pensions, the earning differences between women and 
their male colleagues lead to larger gender gaps in the pension 
amounts.
    This committee has spent a considerable amount of time in 
the early months of the 110th Congress examining the status of 
America's middle class and pursuing policies to strengthen the 
middle class. Compared to a generation ago, families have lost 
13-1/2 weeks of full-time work to the U.S. economy.
    While families put in more hours at work than their parents 
did, their inflation adjusted incomes are only minimally 
higher. In fact, when one adjusts for the additional hours 
worked, median living standards are actually lower. Nearly two-
thirds of parents say they do not have enough time with their 
children, and nearly half of all of the employees with families 
report conflicts between their jobs and their families. On 
average, women's wages constitute more than one-third of their 
family's income. Paying women an equal salary for equal work is 
immediate means to making their families more secure. More than 
3.5 million single mothers live in poverty. Because of pay 
inequality, single mothers are twice as likely to live below 
the Federal poverty line as single fathers. Equal pay would 
serve as an important antidote to poverty.
    Gender pay discrimination clearly has far-reaching 
implications for America's economy and the middle class. That 
is why our hearing today is so very important, and I want to 
thank, at the outset, Congresswoman Rosa DeLauro for her 
tireless advocacy on this issue, and Representative Holmes, for 
their work on this and for sharing that with the committee 
today, and I look forward to hearing your testimony about the 
legislation, the Paycheck Fairness Act, of which I am a proud 
cosponsor.
    The Paycheck Fairness Act would extend the Equal Pay Act 
and would take affirmative steps to eliminate gender-based wage 
discrimination by enhancing enforcement, increasing training 
research and education outreach. We will hear testimony from 
the witnesses in a moment.
    Now I would like to recognize Mr. McKeon, the senior 
Democrat on the committee--oh, senior Republican on the 
committee. I am getting closer.
    Mr. McKeon. Oh, boy.
    Chairman Miller. Buck wants to go out and come back in, I 
think.
    Mr. McKeon. Well, on that note, thank you, Chairman Miller.
    Chairman Miller. Can I get you a glass of water?
    Mr. McKeon. I do not think I would switch if I could be the 
senior Democrat on the committee.
    Chairman Miller. No, you would not want that.
    Mr. McKeon. Thank you, Chairman Miller.
    This committee plays a key role in shaping policies that 
impact the quality of life for all Americans of all ages, of 
all incomes and, yes, of either gender. I am grateful to have 
four of these Americans with us today, ready to provide their 
testimony on the second panel as they give us their input on 
the state of our consistently growing economy and its impact on 
men and women alike.
    I would also like to extend a special welcome to 
Congresswoman Rosa DeLauro and Delegate Eleanor Holmes Norton 
for joining us today.
    Mr. Chairman, a few months ago when we convened our first 
hearing on the middle class and our Nation's economy, I told 
our colleagues that I have never been one to engage in class 
warfare, and I was not about to start for the purposes of that 
hearing. I have always found that, while pitting one group 
against another often makes for good politics, it rarely makes 
for good policy. I believe the same can be said for the issue 
before us today. This is an issue that can become very 
emotionally charged, and if we are not careful, if we let that 
occur, we can do significant damage in many ways. We could 
inadvertently punish one group of workers while purportedly 
attempting to help another.
    Our efforts could lead to unnecessary and frivolous 
litigation that could place excessive burdens on employers and 
employees alike or we may simply lead ourselves toward Federal 
policy that could be viewed as too heavy handed or intrusive 
into the lives of working men and women. In short, before we 
approach this issue, we should look to the time-honored mantra 
that guides, or at least should guide so much of our work here 
in Washington, ``do no harm.''
    Through the Equal Pay Act which amended the Fair Labor 
Standards Act and the Civil Rights Act, Federal law currently 
prohibits an employer from paying an employee different wages 
or, otherwise, discriminating in any term or condition of 
employment on the basis of gender. Does that mean that there is 
no sexism or any other set of circumstances that could place 
men and women on anything other than a level footing in a given 
workplace? Certainly not. However, the fact is, under current 
law, there are remedies for violations that show clear gender 
discrimination.
    Under the Equal Pay Act, for example, the person found 
having been discriminated against can obtain backpay for any 
wages unlawfully withheld as a result of pay inequality and 
twice that amount for a willful violation, and violations of 
the Civil Rights Act allow for jury trials and punitive damages 
for victims of intentional sex discrimination included in wage-
related cases.
    I will look forward to hearing from all of our witnesses 
today about how these laws currently are being applied to 
modern day cases of wage inequality. I will also look forward 
to hearing from our witnesses about the disparate views among 
experts on the scope of this potential problem.
    Congresswoman DeLauro, data you cite shows that women earn 
80 cents on the dollar to men. At points, the American Academy 
of the University Women Education Foundation cites the number 
at 95 cents on the dollar when controlling for other factors.
    A witness on our second panel looks at the raw 2006 data 
and cites 88 cents on the dollar among full-time workers and 
notes other studies that show that, the closer you look at the 
numbers, the more it narrows to nearly a statistically 
insignificant comparison.
    In short, the facts with regard to this matter are all over 
the map, and I am pleased we will have a chance to take a 
closer look at the reasons why during our time together this 
morning. It goes without saying that no one in this room 
approves of discrimination in any form, including 
discrimination based on gender. As a civilized society, we 
simply should not tolerate it. I have three daughters and three 
sons--I do not dare discriminate--and we now have more 
grandsons than granddaughters, but it is very close, and it 
used to be a lot more granddaughters than grandsons, so I do 
not know how that all works out.
    Chairman Miller. If you go to 35, I think it will start to 
even out. He is at 27 now.
    Mr. McKeon. 28 and one coming, so it is very close.
    At the same time, I cannot help but think back to that 
simple phrase of ``do no harm.'' As we hear from our witnesses 
today and as we consider significant and substantial changes to 
Federal law, I hope we keep in mind and recognize the very 
clear, very strong anti-gender discrimination laws we already 
have on the books.
    Once again, thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Without objection, all members will have 14 days to submit 
additional material and testimony for the hearing record, and 
at this point, I would like to submit a statement for the 
record from our Speaker, Congresswoman Nancy Pelosi. If there 
is no objection, it will be made part of the record.
    [The information follows:]

           Prepared Statement of Hon. Nancy Pelosi, Speaker,
                     U.S. House of Representatives

    I want to thank the Education and Labor Committee Chairman George 
Miller for convening this critical hearing today on Strengthening the 
Middle Class: Ensuring Equal Pay for Women.
    I also want to recognize the leadership of Congresswoman Rosa 
DeLauro, a champion for equal pay in the Congress, who for 10 years has 
been introducing the Paycheck Fairness Act.
    Over the last four decades, we have made strides in closing the 
wage gap between women and men. But it has not been enough. Working 
women now earn about 77 cents for every dollar earned by men. The 
earnings for African-American women are 68 percent of men's earnings; 
the earnings of Hispanic women are 57 percent of men's earnings; and 
the earnings of Asian-American women are 88 percent of men's earnings.
    Today, almost four full months into the new year, women throughout 
the country mark the date to which they have worked just so their wages 
equal the same amount paid to men in the previous year. That is because 
it takes the average woman 16 months to earn what men earn in one 
calendar year. This is not just and does not reflect appropriately the 
contributions they make.
    For many, closing the wage gap is not just a matter of equity, but 
survival. Many low-wage women workers are the source of sole support 
for their families. Economic equity and self-sufficiency are essential 
to achieving the American dream. It is outrageous that women begin the 
quest to achieve that dream already at a deficit.
    Working women and their families deserve equal pay for equal work 
and I am proud that the Education and Labor Committee, led by Chairman 
Miller are addressing this issue today.
                                 ______
                                 
    [The prepared statement of Mr. Altmire follows]:

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Mr. Chairman, for holding this hearing today on ensuring 
equal pay for women.
    I would like to extend a warm welcome to all of the witnesses, and 
in particular to my distinguished colleague Representative DeLauro. I 
appreciate the time you took to be here today and look forward to your 
testimony.
    Currently, women make 77 cents for every dollar that is earned by a 
man. Some of this disparity is a result of different professional 
choices generally made by men and women. However, even when accounting 
for all of these factors women still only make somewhere between 90 and 
95 cents for every dollar that men make.
    This gap is not only unfair, but it also exacerbates societal ills. 
Single women, who are the chief income earners for their household, 
have a 36 percent chance of living in poverty. Older women who have 
worked are less likely to receive pension benefits and receive fewer 
benefits when they do have one. If women received equal pay, then fewer 
of the households they lead would be in poverty and they would have 
greater economic security later in life.
    Thank you again, Mr. Chairman, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [The prepared statement of Ms. Hirono follows:]

    Prepared Statement of Hon. Mazie K. Hirono, a Representative in 
                   Congress From the State of Hawaii

    Mr. Chairman, thank you for providing this Committee the 
opportunity to hold the first-ever hearing in the U.S. House of 
Representatives on the issue of pay equity for men and women. To hold 
this hearing on Equal Pay Day underscores the challenge before us, as 
today signifies the number of days into a new year that women have to 
work in order to equal the wages paid to men in the previous year.
    While improvements have been made to address gender discrimination 
in the workplace, gender-based wage discrimination remains a problem 
for women in our workforce. Women earn 77 cents for every dollar earned 
by men. This wage disparity costs women anywhere from $400,000 to $2 
million over a lifetime. The gap exists from the beginning of a woman's 
work life and grows wider as she ages.
    A newly published study, conducted by the American Association of 
University Women, has found that women who are only one year out of 
college make 80 percent of what men earn and ten years later make only 
69 percent. I look forward to hearing more details on this study from 
one of its authors, Dr. Catherine Hill.
    I am proud to cosponsor H.R. 1338, the Paycheck Fairness Act, which 
was introduced by Congresswoman Rosa DeLauro, another of our witnesses 
here this morning. H.R. 1338 takes affirmative steps to eliminate 
gender-based wage discrimination and ensure that women earn what men 
earn for doing the same job. There is one key provision of the bill 
that I would like to highlight.
    H.R. 1338 would impose a stricter burden on an employer who wishes 
to affirmatively defend its actions by citing non-gender reasons for 
the difference in wages. Currently, under the Equal Pay Act of 1963, 
once a prima facie case has been established by the employee, the 
burden shifts to the employer who can justify the pay differential by 
citing a differential based on ``any factor other than sex.''
    This affirmative defense has been used as a broad catch-all 
exception that embraces an almost limitless number of factors, 
including: seniority systems, merit systems, or systems that measure 
earnings by quality or quantity of production. There is a reasonable 
need to close this loophole in the Equal Pay Act and give the law 
``teeth'' for adequate enforcement.
    Mr. Chairman, thank you again for holding this hearing on the 
gender pay gap.
                                 ______
                                 
    Chairman Miller. As our first two witnesses today, we are 
honored to have Congresswoman Rosa DeLauro and Congresswoman 
Eleanor Holmes Norton.
    Rosa DeLauro has represented Connecticut's 3rd District 
since 1990. She currently serves as the cochair of the House 
Steering and Policy Committee, and she is a member of the House 
Appropriations Committee and chairs the House's Agriculture and 
FDA Appropriations Subcommittee. Congresswoman DeLauro first 
introduced the Paycheck Fairness Act nearly 10 years ago, and 
has actively sought to end the wage gap between men and women. 
Congresswoman DeLauro earned her bachelor's degree with honors 
from Marymount College and a master's degree in international 
politics from Columbia University.
    Eleanor Holmes Norton is in her ninth term as a 
congresswoman for the District of Columbia. She serves on the 
Committee on Homeland Security, the Government Reform 
Committee, and the Transportation Infrastructure Committee. 
Prior to serving in Congress, Congresswoman Holmes Norton was 
named by President Jimmy Carter as the first woman to chair the 
Equal Employment Opportunity Commission. Congresswoman Holmes 
Norton received her bachelor's degree from Antioch College, and 
she earned a law degree and a master's degree from Yale 
University, and has been very active in the issue of D.C. 
voting rights as we all are so aware of them with their 
legislation last week.
    Thank you very much, both of you, for being here.
    Rosa, we will start with you.

    STATEMENT OF THE HON. ROSA DeLAURO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. DeLauro. Thank you very much, Chairman Miller. I really 
say ``thank you'' to you for the opportunity to be here this 
morning and to you, Republican Ranking Member Mr. McKeon.
    I might just say to you that your comment was ``do no 
harm.'' we say ``do the right thing.'' I would also be mindful 
of the statistics on the amount of money that women are paid on 
the dollar from the Department of Labor, and the last I saw, 
Secretary Chou was heading up that department, but the 
Department of Labor statistics have said that women are paid 77 
cents on the dollar, so that is your own Department of Labor.
    I want to thank you, Chairman Miller and Ranking Member 
McKeon and the House members who are here today, for stepping 
up and holding what is the first-ever hearing in the House of 
Representatives on pay equity, and I am honored to be here with 
my colleague, Eleanor Holmes Norton. As Chairman Miller pointed 
out, she has a distinguished career, and there is no one who 
holds a candle to Eleanor Holmes Norton on bringing equity to 
men, to women, and to families in this Nation.
    The very fact that it has taken nearly 10 years and for 
this institution to take so long to confront our Nation's wage 
gap I think is a sad illustration of how far we still have to 
go; it is long overdue, but the fact is that we are here today, 
and it is a welcomed change. Your strong support represents the 
new priorities and the new direction, Chairman Miller, of the 
110th Congress. How meaningful it is as well that we have 
gathered here, and we hold this hearing this morning on this 
particular day.
    As you know, every April, advocates for equal pay mark the 
day on which the wages paid to American women catch up to the 
wages paid to men from the previous year. This year, that day 
is April 24th. It is time to look at the calendar, and more 
importantly, it is time to look at our own values as a Nation. 
To be sure, women have made great progress since the enactment 
of the Equal Pay Act more than 40 years ago. Today, nearly half 
of the workforce is made up of women. Women are more likely to 
have an advanced degree than men, and there are more than 6 
million businesses in America owned by women, but for all of 
those gains, a significant wage gap exists, and it is my view 
that we have a morale obligation to understand and to explain 
the reasons behind that gap, and we must continue working 
tirelessly until we have closed it entirely.
    According to the General Accountability Office, the GAO, 
the weekly earnings of full-time working women were about 
three-fourths of men's during 2001. The report was prepared 
from a study of earnings history of over 9,300 Americans for 
the last 18 years. Even accounting for factors such as 
occupation, industry, race, marital status, and job tenure, the 
GAO reports working women today earn an average of 80 cents for 
every dollar earned by their male counterparts.
    The issue of pay equity goes to the heart of what matters 
to working women today. It is about ensuring that women who 
work hard and productively and carry a full range of family 
responsibilities are paid at a rate that they are entitled to. 
Pay equity is not a woman's issue; it is a family issue, and 
today's world economic reality and economic insecurity mandate 
two-earner families where possible. In many families, the 
inequity of the pay gap falls hardest on our children because 
so many working women are the primary breadwinners in their 
households. In fact, nearly two-thirds of working women provide 
half or more of their household income, and 41 percent of women 
are their family's sole source of income.
    I would like to just give you a definition these days of 
who are the unmarried women in this Nation and their economic 
insecurity. They are single. They are widowed. They are 
divorced. They are separated. They are people who are at the 
margins of our economy, and pay equity is uppermost on their 
minds, and shortchanging women of their due shortchanges their 
entire families. It undermines their dreams. It limits their 
hopes, and closing that wage gap has got to be an integral part 
of any profamily agenda.
    We are going to hear this morning from the American Academy 
of University Women. Even education does not significantly 
close the wage gap. A typical college educated woman, working 
full-time, earned $9,500 a year less than a college educated 
man, sending the message that, no matter how hard women work or 
how advanced their degrees, they will not be compensated 
fairly.
    Congressman McKeon, you talked about your daughters. We 
tell our young men and women today--our sons and our 
daughters--go to school; get an education; you will have a 
better future; you will be able to realize your aspirations. 
Well, we need to have our young women realize their aspirations 
as well as our young men, and your three daughters need to be 
compensated, and your granddaughters need to be compensated at 
what rate that they are entitled to for the job that they will 
do. No one should be forced to consider a trade-off between a 
full wage, a family life and a good job, and that is exactly 
what is happening. Men with children appear to get an earnings 
boost while women get just the opposite. According to the GAO, 
men with children earn about 2 percent more than men without 
children while women with children earn about 2-1/2-percent 
less than women without children.
    We are going to hear this morning from a Wal-Mart employee, 
and if you look nationwide, the only word to describe what is 
happening in their stores is discrimination. Women hold 70 
percent of sales associate positions at the retailer but less 
than a third of the management jobs, and as Dedra Farmer will 
tell us at the subcommittee today, Wal-Mart systematically pays 
less to its women employees, and perhaps it is no coincidence 
that Wal-Mart faces the largest class action lawsuit in history 
for these practices with 1.6 million women in all filing suit.
    This is one reason or perhaps it is 1.6 million reasons 
that I have reintroduced the Paycheck Fairness Act. Yes, it is 
10 years, and this is the first hearing that we have been able 
to have on this issue. In the Senate, Senator Clinton has 
introduced this legislation to help address this problem and to 
give teeth to the Equal Pay Act. The marketplace alone will not 
correct this injustice, and that is why we need a legislative 
solution.
    The bill would require the Department of Labor to enhance 
outreach and training efforts, to work with employers to 
eliminate pay disparities. It would prohibit employers from 
retaliating against employees who share salary information with 
their coworkers and stiffen penalties for employers in 
violation of the Equal Pay Act. It would require the Department 
of Labor to resume collecting and disseminating information 
about women workers and create a new grant program that would 
help strengthen women's salary negotiation skills.
    Pay equity is not just another budget item to be bargained 
for or bargained away. It is an integral piece of the larger 
effort we are all part of, an effort to help women gain 
economic security for themselves and for their families. It is 
a common-sense issue. It affects all women and their families. 
By erasing the gap in the labor market, we can help families 
gain the resources that they need to ensure their children have 
access to a better future in the 21st century. We should not 
underestimate the power of one big idea whose time has come, 
and today, I look around, and I think our time has come. Our 
time is now. I know that you all will continue to fight for 
what is right and for the right thing to do.
    I thank you very much, Mr. Chairman, and I thank you, 
Ranking Member McKeon.
    Chairman Miller. Thank you very much.
    [The statement of Ms. DeLauro follows:]

    Prepared Statement of Hon. Rosa L. DeLauro, a Representative in 
                 Congress From the State of Connecticut

    Chairman Miller, thank you very much for the opportunity to testify 
before the Committee on Education and Labor this morning.
    I want to thank you very much for stepping up and holding what is 
the first-ever hearing in the House of Representatives on equal pay. 
The very fact that it has taken this institution so long to confront 
our nation's wage gap is a sad illustration of how far we still have to 
go.
    It is long overdue, but, the fact that we are here today is a 
welcome change. Your strong support represents the new priorities and 
new direction of the 110th Congress. Thank you Mr. Chairman.
    How meaningful it is, as well, that we have gathered here you hold 
this hearing on this particular day. As you know, every April, 
advocates for equal pay mark the day on which the wages paid to 
American women ``catch up'' to the wages paid to men from the previous 
year. This year that day is April 24th. It is time to look at the 
calendar and time to look at our own values as a nation.
    To be sure, women have made great progress since the enactment of 
the Fair Pay Act more than 40 years ago. Today, nearly half the 
workforce is made up of women. Women are more likely to have an 
advanced degree than men. And there are more than 6 million businesses 
in America are owned by women
    But for all those gains, a significant wage gap is still with us, 
and that gap constitutes nothing less than an ongoing assault on 
women's economic freedom. We have a moral obligation to understand and 
explain the reasons behind that gap. And we must continue working 
tirelessly until we have closed it entirely.
    According to the General Accountability Office (GAO) the weekly 
earnings of full-time working women were about three-fourths of men's 
during 2001.
    The report was prepared from a study of the earnings history of 
over 9,300 Americans for the last 18 years. Even accounting for factors 
such as occupation, industry, race, marital status and job tenure, the 
GAO reports, working women today earn an average of 80 cents for every 
dollar earned by their male counterparts.
    The issue of pay equity goes to the heart of what matters to 
working women. It is about ensuring that women who work hard and 
productively and carry a full range of family responsibilities are paid 
at a rate they are entitled. I often say pay equity is not a women's 
issue. It is a family issue.
    In today's world, economic reality and economic insecurity mandate 
two-earner families, where possible. In many families, the inequity of 
the pay gap falls hardest upon children, because so many working women 
are the primary breadwinners in their households. In fact, nearly two-
thirds of working women provide half or more of their household income, 
and 41 percent of women are their families' sole source of income.
    Short-changing women of their due, short-changes their entire 
families, undermines their dreams, and limits their hopes. Closing the 
wage gap must be an integral part of any pro family agenda.
    As we will hear from American Academy of University Women today, 
even education does not significantly close the wage gap. A typical 
college-educated woman working full-time earned $9,500 a year less than 
a college-educated man, sending the message that no matter how hard 
women work or how advanced their degree, they will not be compensated 
fairly.
    No one should be forced to consider a trade-off between a full 
wage, a family life, and a good job. Yet that is what is happening. Men 
with children appear to get an earnings boost, while women get just the 
opposite. According to the GAO, men with children earn about 2 percent 
more than men without children, while women with children earn about 
2.5 percent less than women without children.
    We will also be hearing from a former Wal-Mart employee, and if you 
look nationwide, the only word to describe what is happening in their 
stores is: discrimination . Women hold 70 percent of sales associate 
positions at the retailer, but less than a third of management jobs. 
Perhaps it is no coincidence that Wal-Mart faces the largest class 
action lawsuit in history for these practices, with 1.6 million women 
in all filing suit.
    That is one reason--or perhaps it is 1.6 million reasons--I have 
reintroduced The Paycheck Fairness Act, together with Senator Hillary 
Rodham Clinton, to help address this problem and give teeth to the 
Equal Pay Act. The marketplace alone will not correct this injustice--
that is why we need a legislative solution.
    The bill would require the Department of Labor to enhance outreach 
and training efforts to work with employers to eliminate pay 
disparities. It would prohibit employers from retaliating against 
employees who share salary information with their co-workers and 
stiffen penalties for employers in violation of the Equal Pay Act. And 
it would require the Department of Labor to resume collecting and 
disseminating information about women workers and create a new grant 
program that would help strengthen women's salary negotiation skills.
    Pay equity is not just another budget item to be bargained for, or 
bargained away. It is an integral piece of the larger effort we are all 
part of--an effort to help women gain economic security for themselves 
and their families.
    This is a common sense issue that affects all women and their 
families. By erasing this gap in the labor market we can help families 
gain the resources they need to ensure their children have access to a 
better future in the 21st century.
    We should not underestimate the power of one big idea whose time 
has come. And today, I look around and I think: our time has come. Our 
time is now. I know you will all continue to fight for what is right.
    Thank you Mr. Chairman and Ranking Member McKeon, I look forward to 
your questions.
                                 ______
                                 
    Chairman Miller. Eleanor.

  STATEMENT OF THE HON. ELEANOR HOLMES NORTON, A DELEGATE IN 
             CONGRESS FROM THE DISTRICT OF COLUMBIA

    Ms. Norton. Thank you, Mr. Chairman. I thank you, 
personally, for giving the Equal Pay Act the first attention it 
has gotten since the Act was passed in 1963.
    In answer to my colleague who came to Congress in the same 
year I did, I can only tell you that the DeLauro determination 
is well-known in this House, but when it has come to the 
Paycheck Fairness Act, there has been nothing like her zeal 
each and every year against the odds. Usually, Rosa gathers us 
all to have a press conference with the Senate on this day 
because that is the best we can do. So I cannot tell you what 
this must mean to Rosa to have the first hearing, and it means 
the very same to her now 70 or so cosponsors.
    Mr. Chairman, I hope that we do not get lost in the usual 
argument between how much disparity there is. I wonder if there 
is anybody on the panel who would say there is no disparity. I 
would ask you to concentrate on this, really, quite modest bill 
because this bill simply deals with updating a statute which, I 
have to say to you, has fallen into virtual disuse because its 
remedies bespeak another era. This was the first of the great 
civil rights statutes to be passed that had a remedy in it at 
all, and it is creaky and it shows.
    I was elated when, as I became chair of the Equal 
Employment Opportunity Commission, President Carter passed an 
historic civil rights reorganization bill with Title VII, which 
the Agency already had the EPA, the ADEA. The ADA had not 
passed yet. The whole point was to bring all of the job 
discrimination statutes to one place. We paid special attention 
to the EPA because it was coming from the Labor Department, and 
we wanted to make sure, and women wanted to make sure that 
there was nothing lost in the transfer, and I am going to offer 
some statistics today that will show that wherever you are on 
the question of disparities, that I think there will be a 
bipartisan agreement that this statute is due for updating.
    Frankly, the civil rights statutes, themselves, Mr. 
Chairman, have not been updated since the 1991 Civil Rights 
Act, and that occurred because the Supreme Court issued a 
decision that left women with fewer rights to address basic job 
discrimination than minorities, and Congress passed this 
historic Act. I want to say to you, Mr. Chairman, that I will 
be introducing a bill that has long been sought by Federal 
employees who are second class people. When it comes to job 
discrimination, their own complaints are essentially reviewed 
and investigated by the Government, itself. It is as if you 
filed a suit against PEPCO or Microsoft, and they said, ``Fine. 
Let me see if I have committed discrimination,'' but at least 
the job discrimination statutes have more or less kept pace 
with the times largely because of when they were passed.
    I am going to be introducing another bill today, Equal Pay 
Day, called the Fair Pay Act, which Senator Harkin and I have 
long introduced. It is a bill that has to do with sex 
segregation. It is not a bill for today. The bill for today is 
to update a bill which had strong bipartisan support from the 
beginning, and there is no reason it will not have it today 
when we simply bring it into the 21st century. It is vitally 
important. It is like an old lady, Mr. Chairman, if you please. 
The average woman does not even think about the EPA because she 
does not hear anything about the EPA. You hear about Title VII. 
You hear about the age discrimination statute. You do not even 
hear the words ``EPA'' in the enforcement sense, and I want to 
say a word before and after on enforcement.
    When I was at the EEOC during the Carter administration, 
every year, there were hundreds of EPA suits. As the 1980s 
progressed, there was not a decline, a precipitous decline. 
Now, where have we come to now? Mr. Chairman, it would be 
awfully important if the committee could find out where we are 
now because this is how the EEOC reports EPA suits.
    From 1979 to 2003, 364 filed. Well, you know, that is worth 
about 24 a year. Why do they group all of these years together? 
I can tell you they include my years in that. I am talking 
about hundreds of cases filed per year. Why don't we have a 
breakout? Well, we do have a breakout year by year, but here is 
what the breakout says. Equal Pay Act charges includes 
concurrent charges with Title VII, ADEA and ADA. What that 
tells you is that everybody throws in an EPA count, but they 
are essentially relying not on the EPA; at least I do not think 
so, and if they were, I think the agency would love to tell us 
about it. So the way in which they keep record of the statute 
bespeaks how the statute is viewed even by the agency.
    Why do women not turn to something called the Equal Pay Act 
which was passed first and foremost for them? It obviously 
applies to men, too. Because, if they bother to look when they 
do not hear anything about the statute, they will learn or do 
learn that it is too hard and too little of a return for job 
discrimination. There are other aspects of job discrimination--
there is compensatory damages, punitive damages--and I want to 
say to the committee that, if you look at this bill, it is 
simply about updating the procedures of the EPA so that they 
match the procedures of other job discrimination statutes. Why 
would we want to leave women in an invidiously poor position 
relative to other statutes that this Congress, itself, has 
passed--ADEA, Title VII and the like?
    I remind the committee that the damage situation is much 
like the situation you found with the Employee Free Choice Act, 
that when you say you can get backpay, what you have said to 
employers is the cost of doing business is an occasional 
backpay suit. Employers long ago learned how to build backpay 
into the cost of doing business, and therefore, it acts as no 
deterrent whatsoever, and the EPA only has backpay as a remedy. 
Why bother with the Equal Pay Act, women?
    Let me just go through a few other ways in which this is an 
old-fashioned statute. Because Congress stepped up in 1963 
before the 1964 Act, this statute does not have the normal 
class act remedies because that was passed afterwards, so it is 
much harder to get a class. Now imagine in the 21st century a 
statute where, in order to be a member of the class, you have 
to opt in rather than automatically be in the class as with 
class actions in every other kind of statute we pass.
    On retaliation, one of the most important parts of Title 
VII is that it has made it possible for people to have the 
gumption to sue in the first place. There are employers who 
know that there is nothing in the Act that keeps you from 
barring employees from sharing information about wages, so that 
is a good way to keep suits from happening against you. I do 
not think there is any Member of Congress who would want that 
to be the situation for women today, wherever you are on 
disparities.
    The Act bespeaks of another period. At least for some 
courts, that means that if you are claiming an Equal Pay Act 
violation, you have to compare men and women in the same, 
quote, ``establishment.'' Some courts have read that to mean, 
if you have a facility all over the country, as most large 
employers do, you cannot compare nationwide. You have got to 
look at the facility in the District of Columbia or in New 
Haven, Connecticut, and see if there is any disparity there. At 
least some courts have so held.
    Finally, the so-called ``BFOQ,'' which becomes the great 
pretext. If the employer can cite a factor other than sex for 
why the employer has paid the employee less, then fine. If that 
is not a loophole for pretext, I have never seen one, and the 
statute tightens that by requiring the employer to seek an 
alternative practice if one provides an equal business reason 
without any loss to the employer.
    I have gone through these sections of the statute to 
illustrate what I think is a basis for a bipartisan agreement 
on this bill, and I thank you, Mr. Chairman, for giving this 
bill your attention on this day, Equal Pay Day.
    Chairman Miller. Well, thank you very much, and thank you 
to both of you, and I am honored and pleased that the committee 
is able to provide this forum and to work with you on this 
legislation.
    I think a compelling case is being made that this is 
absolutely integral to the strengthening of individuals' 
abilities to provide for themselves and to provide for their 
families, and I have never been one to believe that you can 
build a solid community on the backs of very poor people, and 
when you have deliberative policies to keep people poor, we 
have got to reject those.
    You know, the argument--and you have both stated it. The 
idea whether the gap is 20 percent, 15 percent or 3 percent 
of--I was looking at the Speaker's statement. She often reminds 
us, what is the opportunity cost, and when the penalty is 
backpay or in what would be an extreme case you might get 
double that pay, the opportunity costs in terms of contributing 
to your pension; the opportunity costs in perhaps having health 
insurance or better health insurance or having the coverage for 
your spouse or your children as opposed to not being able to do 
it.You know, this is sort of the miracle of compounded interest 
that people always tell us about.
    If you are really responsible and you save and you do all 
of these things, the miracle of compounded interest will take 
care of you--it will also undo you--and we are in the middle of 
a series of pension hearings here where a 1-percent additional 
fee can take down your pension over 20 years about 17-18 
percent. Over 30 years, it can really undo your ability to 
retire. Well, if you are unable to contribute to your pension 
over a period of years, you are getting undone by the failure 
to be able to participate in that miracle of compounded 
interest.
    So the penalty for people not getting equal pay is far 
beyond that paycheck, and we have to understand the 
repercussions of that in our communities. As a Nation, we tell 
people that they should save more. They have got to start their 
401(k)s. They have got to do these things. Well, it is 
tough,you know. Everybody in the room can look around and say, 
``What would I do with a 15-percent reduction of my pay?'' all 
of those things would become more difficult, and so this is not 
as simple as what that amount is, and obviously, it will vary 
in different places, but it is a very, very important issue 
with respect to the economic health of individuals, families 
and our communities.
    I know you are both busy. I would like to ask if there is a 
member--I would like to recognize Mr. McKeon, but then if there 
is a member of the committee or two who have questions, if you 
have time, we would like to do that.
    Mr. McKeon.
    Mr. McKeon. I do not have any questions.
    Chairman Miller. Okay.
    Are there members here who have questions?
    Lynn Woolsey.
    Ms. Woolsey. Mr. Chairman, I would just like to make a 
comment and thank these two wonderful women up here in front of 
us.
    When I was driving in this morning, because there is a lot 
on television about this being Equal Pay Day, I was thinking 
what if--well, first, I was thinking how lucky that I do not 
have to compete with you guys for my salary because that is all 
we would be talking about around here, but then when I sat down 
here, I realized that probably the women in the House would be 
in very good shape because I think we would be earning more 
than you because these two women would be leading us. So be 
glad that we all get paid the same thing here in the Congress.
    But thank you for your leadership, and let us get going 
with this legislation.
    Chairman Miller. Anyone else?
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    Thank you for being here.
    I was speaking to a group of mostly women volunteers at a 
university a few weeks ago, and they were involved in social 
work activities, and I said, ``Please stay engaged. We need 
you.'' on the way home, I started thinking, ``Was that fair for 
me to say?'' because I know what they would be earning. Then, 
the other day, I looked at some statistics, and they said that, 
of the people coming out of college right now, the lowest paid 
will be the social workers; they will receive half of what most 
will receive, and I felt a stab of guilt and remorse that I had 
asked them to stay in the field and also some anger, and I know 
that this particular bill, I believe, does not address that 
problem, that issue, right?
    Can you speak to that? What do we say to these young 
people? Can we justify not paying people who are professional, 
who care, who choose a profession that helps this country, and 
we do not pay them?
    Ms. DeLauro. I think that Councilman Holmes Norton 
referenced that issue, and her legislation--the Fair Pay Act 
and comparable legislation in the Senate with Senator Harkin--
essentially does, in fact, address the issue of, you know, 
segregated populations and what people are making in this 
regard.
    The Paycheck Fairness Act is a step to move forward on 
enforcing the laws that are currently existing in the Equal Pay 
Act and to bring some opportunity through that venue to be able 
to move to do it. I think you make the relevant point of what 
we do about that. It is not the subject of this hearing, but it 
ought to be the subject of a discussion of how we pay our 
people who sometimes have the most important jobs of raising 
our children and doing other things, and it is my view this is 
because that work is undervalued; this is an issue of values, 
and I think that it matters for us to have that conversation.
    Eleanor.
    Ms. Norton. Well, you raised the problem that the country 
is not yet over the problem of sex segregation in the 
workforce. When you said ``social workers,'' I thought you were 
going to say ``teachers.''
    Ms. Shea-Porter. Teachers, too.
    Ms. Norton. This committee would have jurisdiction over 
them both, and this is difficult in a market economy because 
the argument will be made, well, you know, they all want to do 
that, and so they drive their own wages down.
    What you then have--I do not know--is a man and a woman get 
out of college together. I will tell you something that is not 
unusual. Let us say they have been to junior college, and he 
goes on to be a probation officer, and she goes on to be a 
social worker. He is going to make more money than she is going 
to make at most places. Now, I do not think--excuse me--that 
there is a dime's worth of difference between the two except 
that the social workers who deal with foster children, the most 
troubled families have the worst turnover in the United States. 
That is the big burnout occupation.
    Sure, probation officers deal with people who can present 
some danger. They deal with people who have been troubled. They 
are usually not dealing with their troubled families; they are 
dealing person to person, but since the job has normally been 
held by men, the gender has essentially set the wage.
    My legislation would try to get beyond this but in keeping 
with the market system because it would say you would have to 
show that the job you are doing in your workplace is comparable 
in the four or five points that are used regularly in business 
and industry to set wages, and if you could show that--and that 
burden would be on you just as the burden is on the woman here 
on the Equal Pay Act. Then the response must come from the 
employer. This is very difficult. Women are doing much of it 
themselves, but if you look at the average woman--and let us 
leave no doubt about what we are seeing. We always talk about 
how many of us have become doctors, lawyers and Indian chiefs. 
The average woman today works in a sex-segregated job where the 
wage has been set by the gender that has always held that job.
    Ms. Shea-Porter. So we need two bills?
    Ms. Norton. So I am going to introduce that bill today. I 
think we have got to move--this would be a giant step forward. 
Since 1963, there has not been a single thing done to the Equal 
Pay Act, and it has become, essentially, a statute in disuse.
    I think the first thing to do is to, in fact, update, give 
this statute the same muscle we have given every other 
antidiscrimination statute and see what it does and then move 
on.
    Ms. Shea-Porter. I just want to thank both of you for being 
here and for this work, and I am very, very grateful for all 
social workers.
    Thank you.
    Chairman Miller. Thank you very much. Thank you so much.
    If our next panel will please come forward--Catherine Hill, 
Dedra Farmer, Diana Furchtgott-Roth, and Heather Boushey. If 
you will sit down, we will put your nameplates where you sit. 
Let me welcome you to the committee.
    We will begin with Catherine Hill. Catherine Hill is the 
Director of Research at the American Association of University 
Women Educational Foundation, Dr. Hill has researched gender 
equity on education in the workplace. Dr. Hill received a Ph.D. 
from Rutgers University, her master's in urban planning.
    Ms. Dedra Farmer is from Lawrence, Kansas. Ms. Farmer has 
been employed at Wal-Mart for 13 years, and is currently one of 
the 1.5 million women who are part of the class action lawsuit 
against Wal-Mart, alleging wage discrimination and unequal 
opportunities for promotion. Ms. Farmer has proudly spent her 
career working in the automotive services industry and 
currently manages an automotive shop in Lawrence.
    Ms. Diana Furchtgott-Roth is the senior fellow at the 
Hudson Institute and directs the Institute's Center for 
Employment Policy. She previously served as the chief economist 
at the U.S. Department of Labor and was the chief of staff and 
special advisor to the Council of Economic Advisors. Ms. 
Furchtgott-Roth received her bachelor's degree in economics at 
Swarthmore College and a master's in philosophy from Oxford 
University.
    Dr. Heather Boushey is the senior economist with the Center 
for Economic and Policy Research and previously served as an 
economist at the Economic Policy Institute. Dr. Boushey has 
written on the U.S. labor market, on issues affecting working 
families. Dr. Boushey received her master's and Ph.D. from the 
New School on Social Research and her bachelor's degree from 
Hampshire College.
    Welcome to all of you.
    Dr. Hill, we are going to begin with you.

   STATEMENT OF CATHERINE HILL, RESEARCH DIRECTOR, AMERICAN 
                ASSOCIATION OF UNIVERSITY WOMEN

    Ms. Hill. Thank you very much.
    Chairman Miller, members of the committee, thank you for 
the opportunity to testify today on the issue of pay equity.
    AAUW has a long and proud 125-year history as an advocate 
for education and equity for women and girls, releasing its 
first report on pay equity in 1913. Today, AAUW and its 100,000 
members and 1,300 branches continue its mission through 
education, research and advocacy. This report behind the pay 
gap released yesterday provides new evidence that sex 
discrimination in the workplace continues to be a problem for 
women.
    Mr. Chairman, I request that the full report be made part 
of the record.
    AAUW found that just 1 year after college graduation, women 
earn only 80 percent of what their male counterparts earn. Even 
when they make the same choices as men in terms of field of 
study and occupation, they earn less than their male 
counterparts. 10 years after graduation, women fall further 
behind, earning only 69 percent as what men earn. After 
controlling for factors known to affect earnings, a portion of 
these pay gaps remain unexplained, and it is likely due to 
discrimination.
    This study is based on recent nationally representative 
surveys conducted by the U.S. Department of Education. The 
Baccalaureate and Beyond dataset is unique because it follows 
bachelor degree recipients as they navigate the workplace, 
graduate school and other life choices such as having a family. 
The research examines two sets of college graduates--men and 
women who graduated in 1999-2000 and men and women who 
graduated in 1992-1993. By looking at earnings just 1 year out 
of college, we believe you have as level a playing field as 
possible. The 1992-1993 graduates were chosen so they could 
analyze the earnings over a 10-year period after graduation.
    The pay gap can only be partly explained by choices. A pay 
gap between recently graduated women and men is found in nearly 
every occupation and every major. That is after controlling for 
factors like the major, job, industry, hours worked, workplace 
flexibility, work experience, educational attainment, GPA, 
college institutional selectivity, age, race/ethnicity, region, 
marital status. Even when we control for all of these factors, 
a 5-percent difference in the earnings of male and female 
college graduates is not explained 1 year after graduation. It 
is reasonable to assume that this difference is the product of 
discrimination.
    Choices explain even less of the pay gap 10 years after 
graduation. Controlling for a similar set of factors, including 
motherhood, we found a 12-percent difference in the earnings of 
male and female college graduates that is unexplained and 
attributable only to gender.
    This research asks a basic and important question: If a 
woman makes the same choices as a man, would she make the same 
pay? The answer is no. In fact, 10 years after graduation, this 
pay gap is widening. Strikingly, women did not make gains in 
any of the fields in that 10-year period compared to their male 
counterparts.
    It is also important to note that what we call ``women's 
choices'' are often constrained and need to be looked at in 
context. When women earn less, most couples are likely to 
prioritize a higher earning husband's career path. When women 
are married, this trade-off may be worthwhile. While most women 
marry at some point, most also spend a large part of their 
lives on their own. Women are investing in higher education but 
are not receiving the same salaries as men. Strikingly, a woman 
who earned a degree from a highly selective institution had 
lower earnings than a man with a degree from a highly selective 
institution or a moderately selective institution and about the 
same pay as a man who attended a minimally selective college.
    Both women and men invest a great deal of financial 
resources in their college education and often graduate with 
substantial student loans. AAUW's research suggests that 
women's investment in attending a highly selective school, 
which typically costs more than other schools, does not pay off 
for her in the same way that it pays off for her male 
counterparts. Because of the pay gap, women could have a harder 
time paying off their student loans. So what can be done about 
the gender pay gap?
    Too often, both men and women dismiss the gender pay gap as 
something amounting to different choices, and while decisions 
about a college major and the kinds of jobs that you accept can 
make a difference, individuals cannot simply avoid the pay gap 
by making different choices. Even women who make the same 
occupational choices as men will not end up with the same 
earnings.
    Women's progress through the past 30 years attests to the 
possibility of change. Before Title IX and Title VII, employers 
could and did refuse to hire women whose occupations were 
deemed unsuitable, fire women when they became pregnant, limit 
women's work schedules simply because they were female. Schools 
could and did set quotas for the number of women admitted or 
refused admission to women all together. In the decades since, 
women have made remarkable progress in the fields of law, 
medicine and business. 30 years ago, the pay gap was often 
attributed to the notion that women's education and skills 
simply did not measure up.
    If that were ever the case, that is certainly not the case 
today. Unfortunately, women's educational gains have not fully 
translated into equal pay for women in the workplace. In fact, 
the pay gap remains larger for college graduates than it is for 
the population as a whole. AAUW's research provides strong 
evidence that sex discrimination still exists in the workplace 
and is not disappearing on its own. We must take stronger steps 
to address these critical issues.
    Two pieces of legislation will provide additional tools in 
this struggle. AAUW strongly supports the Paycheck Fairness Act 
introduced and discussed by my fellow panelist, Representative 
Rosa DeLauro. We also endorse the Fair Pay Act introduced by 
Representative Eleanor Holmes Norton.
    Collectively, women have demonstrated they have the skills 
and the intelligence to do any job. Women have made enormous 
gains in education and labor force participation, and now it is 
time for paychecks to catch up.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Hill follows:]

   Prepared Statement of Catherine Hill, Ph.D., Director of Research,
                American Association of University Women

    Chairman Miller and members of the Committee, thank you for the 
opportunity to testify today on the issue of pay equity for men and 
women.
    I am the Director of Research at the American Association of 
University Women Educational Foundation. Founded in 1881, AAUW has over 
100,000 members and 1300 branches across the country. AAUW also has a 
long and proud 125-year history as an advocate for education and equity 
for women and girls, releasing its first report on pay equity in 1913. 
Today, AAUW continues its mission through education, research, and 
advocacy.
    I am pleased to share findings from AAUW's research report Behind 
the Pay Gap, co-authored by myself and Judy Goldberg Dey. This report--
just released yesterday--provides new evidence that sex discrimination 
in the workplace continues to be a problem for women, including young 
college-educated women.
    In our report, AAUW found that just one year after college 
graduation, women earn only 80 percent of what their male counterparts 
earn. Even women who make the same choices as men in terms of fields of 
study and occupation earn less than their male counterparts. Ten years 
after graduation, women fall further behind, earning only 69 percent of 
what men earn. After controlling for factors known to affect earnings, 
a portion of these pay gaps remains unexplained and is likely due to 
discrimination.
The study is based on recent, nationally representative surveys 
        conducted by the U.S. Department of Education.
    AAUW's research uses the Baccalaureate and Beyond Longitudinal 
Study, a nationally representative data set of college graduates 
produced by the U.S. Department of Education. This data set is unique 
because it is designed to follow bachelor's degree recipients as they 
navigate the workplace, graduate school and other life changes such as 
having a family. The research examines two sets of college graduates: 
men and women who graduated in 1999-2000, and men and women who 
graduated in 1992-93; we also limited our analysis to those who earned 
their first bachelor's degree at age 35 or younger.
    The 1999-2000 graduates were chosen because they were the most 
recent graduates interviewed in the year after graduation. By looking 
at earnings just one year out of college, we believe you have as level 
a playing field as possible. These employees don't have a lot of work 
experience and, for the most part, don't have care-giving obligations, 
so you'd expect there to be very little difference in the wages of men 
and women. The 1992-1993 graduates were chosen so that we could analyze 
earnings ten years after graduation.
The pay gap can only be partially explained by differences in choices.
    Despite some gains, many majors remain strongly dominated by one 
gender. Female students are concentrated in majors that are associated 
with lower earnings, such as education, health, and psychology. Male 
students dominate the higher-paying majors: engineering, mathematics, 
physical sciences, and business. Both women and men who majored in 
``male-dominated'' majors earn more than those who majored in ``female-
dominated'' or ``mixed-gender'' majors.
    The choice of major is not the full story, however, as a pay gap 
between recently graduated women and men is found in nearly every field 
and in every occupation.
    Women full-time workers earn less than men full-time workers in 
nearly every major, although the size of the gap varies. In education, 
a female-dominated major and occupation, women earn 95 percent as much 
as their male colleagues earn. In biology, a mixed-gender field, women 
earn only 75 percent as much as men earn, just one year after 
graduation.
    The kinds of jobs that women and men accept also account for a 
portion of the gender pay gap. While the choice of major is related to 
occupation, the relationship is not strict. For example, some 
mathematics majors teach, while others work in business or computer 
science. It is important to bear in mind that such choices themselves 
can be constrained in part by biased assumptions regarding appropriate 
career paths for men and women. Other differences in type of jobs also 
affect earnings. For example, women are more likely than men to work in 
the nonprofit and public sectors, where wages are typically lower than 
in the for-profit sector.
A portion of the pay gap in the year after graduation is not explained 
        by women's choices or characteristics.
    AAUW's analysis showed that men and women's different choices can 
explain only some of the wage gap. After controlling for factors like 
major, occupation, industry, sector, hours worked, workplace 
flexibility, experience, educational attainment, enrollment status, 
GPA, institution selectivity, age, race/ethnicity, region, marital 
status and children, a five percent difference in the earnings of male 
and female college graduates is unexplained. It is reasonable to assume 
that this difference is the product of discrimination.
    Discrimination is difficult to measure directly. It is illegal, and 
furthermore, most people don't recognize discriminatory behavior in 
themselves or others. This research asked a basic but important 
question: If a woman made the same choices as a man, would she earn the 
same pay? The answer is no.
Ten Years after Graduation, the Pay Gap Widens.
    AAUW's analysis found that, ten years after graduation, the gender 
pay gap widened--so much so that female full-time workers earned only 
69 percent of what their male peers earned.
    Ten years out, the gender gap within occupations also increased. 
For example, in engineering and architecture, where wages were at 
parity one year out of college, we now see that women earn only 93 
percent of what their male counterparts earn. In business and 
management, the wage gap widens, with women earning 69 percent of men's 
wages, compared to 81 percent one year out. Strikingly, women did not 
make gains in any fields compared to their male counterparts.
    Similar to what we saw one year out of college, this pay gap can 
only partially be explained as a result of women's characteristics and 
choices. In terms of occupation, women and men remained segregated in 
the workforce over time, and the difference in earnings among 
occupations grew over this time period. This occupational segregation 
is mirrored in the gender division by industry. Women also continued to 
be much more likely to work in the lower-paying non-profit sector. 
Among full-time workers, women reported working fewer hours than men, 
and their employment and experience continuity also differed from men. 
These choices were associated with wage penalties.
    It is important to note that what we are calling women's 
``choices'' are often constrained and need to be looked at in context. 
When women earn less--as they almost immediately do right out of 
college--most couples are likely to prioritize the higher-earning 
husband's well-being and career path in relation to child care, choice 
of residence, and other household decisions. When women are married, 
this tradeoff may be worthwhile; however, nearly one half of women did 
not live with a husband in 2005. While most women marry at some point, 
most also spend a large part of their lives on their own. Women are 
also much more likely than men to be single parents.\1\ It is important 
for us to remember that lower pay for women means fewer resources for 
their children today and their retirement tomorrow.
---------------------------------------------------------------------------
    \1\ American Community Survey; http://factfinder.census.gov/
servlet/STTable?--bm=y&-geo--id=01000US&-qr--name=ACS--2005--EST--G00--
S1101&-ds--name=ACS--2005--EST--G00----
---------------------------------------------------------------------------
Women are investing in higher education, but not receiving the same 
        salaries as men.
    Choices made in college affect earnings ten years later. College 
selectivity matters for men and women, but gender differences were more 
pronounced. Strikingly, a woman who earned a degree from a highly 
selective institution had lower earnings than men with degrees from 
highly selective institutions or moderately selective schools, and 
about the same pay as a man who attended a minimally selective college. 
Both women and men invest a great deal of financial resources in their 
college educations, and often graduate with substantial student loans. 
AAUW's research suggests that a woman's investment in attending a 
highly selective school--which is typically more expensive--does not 
pay off for her in the same way it does for her male counterparts. 
Further, because of the pay gap, women often have a harder time paying 
off their student loans.
Ten years out, the unexplained portion of the pay gap widens.
    AAUW's analysis showed that while choices mattered, they explained 
even less of the pay gap ten years after graduation. Controlling for a 
similar set of factors, we found that ten years after graduation, a 
twelve percent difference in the earnings of male and female college 
graduates is unexplained and attributable only to gender.
The pay gap among full-time workers understates the lifetime difference 
        in the earnings of women and men.
    The impact of personal choices such as parenting have profoundly 
different effects on men and women. Ten years after graduation, 23 
percent of mothers in this sample were out of the work force, and 17 
percent worked part-time. Among fathers, only 1 percent were out of the 
work force, and only 2 percent worked part-time. Stay-at home dads in 
this study appear to be a rare breed. We know that most mothers return 
to the workforce, and hence it is reasonable to assume that the pay gap 
between men and women will widen as mothers return to full-time 
employment, driving down average earnings for women.
    Interestingly, motherhood is not the driving factor behind the wage 
gap among women working full-time ten years after graduation.\2\ That 
is, mothers who were in the workforce full-time did not earn less than 
other women also working full-time, controlling for other factors such 
as occupation and field of study.
---------------------------------------------------------------------------
    \2\ This is in keeping with research that shows that a ``motherhood 
penalty'' applies to most women but less to women who maintain 
continuous work force attachment (Lundberg & Rose, 2000).
---------------------------------------------------------------------------
What can be done about the gender pay gap?
    First, it must be publicly recognized as a serious problem. Too 
often, both women and men dismiss the pay gap as simply a matter of 
different choices. While choices about college major and jobs can make 
a difference, individuals cannot simply avoid the pay gap by making 
different choices. Even women who make the same occupational choices 
that men make will not end up with the same earnings. If ``too many'' 
women make the same occupational choice, resulting in job segregation, 
earnings can be expected to decline.
    Women's progress throughout the past 30 years attests to the 
possibility of change. Before Title IX of the Education Amendments of 
1972 and Title VII of the Civil Rights Act of 1964, employers could--
and did--refuse to hire women for occupations deemed ``unsuitable,'' 
fire women when they became pregnant, or limit women's work schedules 
simply because they were female. Schools could--and did--set quotas for 
the number of women admitted or refuse women admission altogether. In 
the decades since these civil rights laws were enacted, women have made 
remarkable progress in fields such as law, medicine, and business. 
Thirty years ago the pay gap was attributed to the notion that women's 
education and skills just didn't ``measure up.'' If that was ever the 
case, it certainly isn't true now.
    Unfortunately, women's educational gains--ironically likely 
motivated in part by women's desire for economic security\3\--have not 
translated into equal pay for women in the workforce. In fact, the pay 
gap remains larger for college graduates than the population as a 
whole.\4\
---------------------------------------------------------------------------
    \3\ DiPrete, Thomas A., & Claudia Buchmann. (2006, February). 
Gender-specific trends in the value of education and the emerging 
gender gap in college completion. Demography, 43(1), 1-24.
    \4\ Authors calculation from tables produced by the U.S. Department 
of Labor, Bureau of Labor Statistics. (2006). Median Usual Weekly 
Earnings, Employed Full Time, Wage and Salary Workers, 25 Years and 
Older. Retrieved April 16, 2007 from http://www.bls.gov/cps/.
---------------------------------------------------------------------------
    AAUW's research report provides strong evidence that sex 
discrimination still exists in the workplace and is not disappearing on 
its own. Existing laws have failed to end the inequities that women 
face in the workplace. AAUW believes we must take stronger steps to 
address this critical issue. Two pieces of legislation--the Paycheck 
Fairness Act and the Fair Pay Act--would provide additional tools in 
the struggle for equal pay.
    AAUW strongly supports the Paycheck Fairness Act, introduced and 
discussed by my fellow panelist, Rep. Rosa DeLauro. AAUW also endorses 
the Fair Pay Act, introduced by Rep. Eleanor Holmes Norton, which 
addresses the reality that men and women often work in different 
industries and jobs, and requires employers to provide equal pay for 
work of equal value, whether or not the jobs are identical.
    Collectively, women have demonstrated that they have the skills and 
the intelligence to do any job. Women have made enormous gains in 
education and labor force participation. Now it's time for our 
paychecks to catch up.
                                 ______
                                 
    Chairman Miller. Ms. Farmer.

  STATEMENT OF DEDRA FARMER, EMPLOYED BY WAL-MART FOR 13 YEARS

    Ms. Farmer. Hi. I am Dedra Farmer, and I have traveled from 
Lawrence, Kansas to appear before this committee today. I hope 
that the experience that I and other women have had who worked 
with me at the largest private employer in this country where 
we were paid less than men, doing the same work, will help this 
committee as it considers new legal protections against wage 
discrimination in the American workplace.
    I worked at Wal-Mart Stores from November of 1989 through 
December of 2002. I was 19 years old when I began my employment 
at Wal-Mart, and expected to work there for many years. I 
worked in the Tire Lube Express Division, TLE, because my 
father, who was an automobile mechanic, kindled in me an 
interest in automobiles and their maintenance and repair.
    Most of the employees in the TLE Division were men. In the 
three stores at which I worked, all located in Kansas, 90 to 95 
percent of salaried managers were men. I was the only woman in 
my district who held a salaried TLE manager position. 
Throughout the TLE Division, I saw evidence of women being paid 
less than men who held the same jobs. At the time I was 
promoted into the TLE manager job, for example, I was assigned 
a salary of $28,000 while most men were paid a base salary of 
$30,000 when they entered the same job. I was very good at my 
work and consistently received high-performance ratings.
    My boss also thought highly of my work as he had assigned 
me to train the new TLE managers, all of whom were men. I was 
amazed, however, to learn, after I was promoted, that these new 
managers were paid more than myself after I had completed 
training them. As a manager, I also had access to the payroll 
information of four employees in the TLE Division. Although the 
male district managers set their pay levels, I saw numerous 
examples of women in hourly positions being paid less than men 
holding the same jobs with shorter tenure at Wal-Mart.
    In addition to base pay, managers at Wal-Mart are eligible 
to receive bonuses in amounts that depend largely on the volume 
of sales at the stores where they work. Consistently, I was 
denied assignment to stores with higher sales volumes than the 
men whose performance and tenure at Wal-Mart were no better 
than mine. Although I was hesitant to do so, eventually, I 
complained about being paid less than men who performed the 
same work as I.
    I made my complaint by sending an e-mail to Lee Scott, the 
CEO of Wal-Mart, in August of 2000. While I was assured that 
they would investigate my complaint by running spreadsheets to 
analyze any gender gap in pay that may exist and get back to 
me, I heard nothing from them. So I sent Mr. Scott another e-
mail in February 2001, raising the same concerns. I never saw 
any spreadsheets, and never even received a response to my 
later e-mail. In October 2002, in a meeting of all employees at 
my store with our store manager known as a ``grassroots 
meeting,'' again, I expressed my concern that women were being 
paid less than men and that a systematic analysis of pay had to 
be conducted. The store manager assured me that I would receive 
a response to my concerns within 90 days.
    The response I received was a pink slip, notifying me that 
I was being fired less than 3 months later on New Year's Eve 
2002. When I asked why I was being terminated, I was told that 
I had taken too many breaks. I challenged that reason. When the 
time records revealed that the frequency of my breaks complied 
with the company rules, my boss offered a different reason to 
support my discharge rather than allow me to return to work.
    I currently serve as the store manager of an AutoZone store 
in Lawrence, Kansas where I have been treated very well. I have 
joined the Dukes versus Wal-Mart class action that is pending 
in Federal court in San Francisco, and I am proud to have 
provided a sworn statement about these events that is part of 
the court record in that case. There, a class of more than 1.6 
million women who have worked in Wal-Mart Stores in the United 
States since December of 1998 has produced evidence that Wal-
Mart has discriminated against us in a denial of our fair share 
of promotions and in paying us less for the same work performed 
by men with the same or shorter tenure and the same or weaker 
performance.
    I hope that you are able to strengthen the protection 
against sex discrimination and pay in this country. I was 
fortunate to have had access to information from which I 
learned that women were regularly paid less than men at the 
Wal-Mart stores at which I worked. Most women would not know 
these pay differences exist and, therefore, would lack the 
evidence with which to challenge discriminatory pay practices 
much less the enormous resources and courage needed to file a 
lawsuit against their employer.
    Thank you.
    Chairman Miller. Thank you.
    [The statement of Ms. Farmer follows:]

      Prepared Statement of Dedra Farmer, Former Wal-Mart Employee

    I am Dedra Farmer and I've traveled from Lawrence, Kansas to appear 
before this Committee today. I hope that the experience that I and 
other women who worked with me at the largest private employer in this 
country, where we were paid less than men doing the same work, will 
help this Committee as it considers new legal protections against wage 
discrimination in the American workplace.
    I worked at Wal-Mart Stores from November, 1989 through December, 
2002. I was 18 years old when I began my employment at Wal-Mart and 
expected to work there for many years. I worked in the Tire Lube 
Express Division (``TLE '') because my father, who was an automobile 
mechanic, kindled in me an interest in automobiles and their 
maintenance and repair.
    Most of the employees in the TLE Division were men. In the three 
stores at which I worked, all located in Kansas, 90 to 95% of the 
hourly sales employees were men. I was the only woman in my district 
who held a salaried TLE Manager position.
    Throughout the TLE Division, I saw evidence of women being paid 
less than men who held the same jobs. At the time I was promoted into a 
TLE Manager job, for example, I was assigned a salary of $ 28,000 while 
most men were paid a base salary of $30,000 when they entered the same 
jobs.
    I was very good at my work and consistently received high 
performance ratings. My boss also thought highly of my work, as he 
assigned me to train the new TLE managers, all of whom were men. I was 
amazed, however, to learn from these new managers that they were paid 
more than I while I trained them.
    As a manager, I also had access to payroll information for 
employees in the TLE Division, although the male District Manager set 
their pay levels. I saw numerous examples of women in hourly positions 
being paid less than men holding the same jobs with shorter tenure at 
Wal-Mart.
    In addition to base pay, managers at Wal-Mart are eligible to 
receive bonuses in amounts that depend largely on the volume of sales 
at the stores where they work. Consistently, I was denied assignment to 
stores with higher sales volumes than men whose performance and tenure 
at Wal-Mart were no better than mine.
    Although I was hesitant to do so, eventually I complained about 
being paid less than men who performed the same work as I. I made my 
complaint by sending an email to Lee Scott, the CEO of Wal-Mart in 
August, 2000. While I was assured they would investigate my complaint 
by running spreadsheets to analyze any gender gap in pay that may exist 
and get back to me, I heard nothing from them. So I sent Mr. Scott 
another email in February, 2001, raising the same concerns. I never saw 
any spreadsheets and never even received a response to my later email. 
In October, 2002, at a meeting of all employees at my store with our 
store manager, known as a ``grassroots meeting,'' again I expressed my 
concern that women were being paid less than men and that a systematic 
analysis of pay had to be conducted. The store manager assured me that 
I would receive a response to my concerns.
    The response I received was a pink slip, notifying me that I was 
being fired less than three months later, on New Year's Eve, 2002. When 
I asked why I was being terminated, I was told I had taken too many 
breaks. I challenged that reason. When the time records revealed that 
the frequency of my breaks complied with company rules, my boss offered 
a different reason to support my discharge, rather than allow me to 
return to work. I currently serve as the store manager at Autozone in 
Lawrence, Kansas where I have been treated very well.
    I have joined the Dukes v. Wal-Mart class action that is pending in 
federal court in San Francisco and am proud to have provided a sworn 
statement about these events that is part of the court record in that 
case. There, a class of more than 1.6 million women who have worked in 
Wal-Mart stores in the United States since December, 1998 has produced 
evidence that Wal-Mart has discriminated against us in the denial of 
our fair share of promotions and in paying us less for the same work 
performed by men with the same or shorter tenure and the same or weaker 
performance.
    I hope that you are able to strengthen the protections against sex 
discrimination in pay in this country. I was fortunate to have had 
access to information from which I learned that women were regularly 
paid less than men at the Wal-Mart stores at which I worked. Most women 
wouldn't know these pay differences exist and, therefore, would lack 
the evidence with which to challenge discriminatory pay practices, much 
less the enormous resources and courage needed to file a lawsuit 
against their employer.
                                 ______
                                 
    Chairman Miller. Ms. Diana Furchtgott-Roth, welcome.

   STATEMENT OF DIANA FURCHTGOTT-ROTH, DIRECTOR, CENTER FOR 
              EMPLOYMENT POLICY, HUDSON INSTITUTE

    Ms. Furchtgott-Roth. Hi, Mr. Chairman, members of the 
committee. I am honored to be invited to testify here today. 
Thank you very much for inviting me.
    Well, I would like to say that, despite a lot of what we 
have heard today, American women are doing great. The United 
States leads the industrialized world in job creation, and 
unemployment rates for women are about the lowest in the 
industrialized world. In contrast, unemployment rates for women 
in most other countries are far higher. In February, the latest 
month for which we have comparable data, American women had an 
unemployment rate of 4.3 percent; whereas, unemployment rates 
in the Euro zone for women, were 8.9 percent; in France, 9.7 
percent; in Germany, 8.3 percent, and in Spain, 11.9 percent.
    Men and women are entitled to equal pay for equal work 
right now if they have the same job responsibilities and 
skills. Congresswoman DeLauro and Chairman Miller are paid 
identically as are many other men and women with the same jobs. 
Two entry level cashiers at the same supermarket, a male and a 
female, are entitled to be paid the same as are male and female 
first-year associates in the same law firm. If they believe 
they are underpaid, they have the legal right to sue for 
discrimination as Ms. Farmer is doing right now. We have 
remedies for discrimination now.
    Academic studies of gender discrimination focus on the 
measurement of the wage gap, which is the difference between 
men's and women's earnings. Dozens of studies of these, of wage 
gaps, have been published, and the studies attempt to measure 
through an economic technique of which I will not go into the 
differences, and the more explanatory variables that are 
included in a regression analysis, the more the wage gap can be 
explained. An analysis that omits variables shows an 
unexplained residue that some people can term 
``discrimination.''
    To take one study as an example, Professor June O'Neill in 
a study published in 2003 in the economics profession's 
flagship journal--the American Economic Review--shows an 
unadjusted wage ratio of 78.2 percent. When she added data on 
demographics, the wage ratio rises to 91.4 percent. Then when 
she added other variables such as workplace and occupational 
characteristics as well as child-related factors, the ratio 
rose to 95.1 percent. When the percentage female in the 
occupation was added, the ratio became 97.5, an insignificant 
difference. It just goes to show, the more variables you add, 
the more you can explain. The study by Dr. Hill that she just 
presented has many important variables, but it also omits other 
important variables. One of those is accumulated lifetime hours 
of work.
    Another thing that it does is it uses very broad 
occupational categories, so I have a page from this study right 
here on page 42. So the industry and occupations--and in 
occupation, she looks at business and management, computer 
science, education, medical professions. Let us just take 
medical professions. There are a lot of different salaries for 
doctors or, under industry, there are manufacturing and health 
care. Again, there are a lot of different salaries for males 
and females within these broad occupation and industry 
categories, and you need to go into a lot finer detail to see 
whether it is fair or discriminatory that two people, male and 
female, are not paid the same.
    The Paycheck Fairness Act would have Washington interfere 
with an employer's ability to set wages. As you all know, 
section VII of the proposed bill says the Secretary of Labor 
shall develop guidelines to enable employers to evaluate job 
categories based on objective criteria such as educational 
requirements, skill requirements, independence, working 
conditions, and responsibility, but these factors are not only 
very difficult to measure--difficult for anyone, not only the 
Secretary of Labor--but they also favor white collar and 
service jobs over manual, blue collar work. The bill's language 
omits experience, risk, inflexibility of work schedules, the 
need to travel, physical strength. These are all factors that 
increase men's wages relative to women's in some of these male-
dominated occupations.
    Rather than helping women, the Paycheck Fairness Act would 
hurt them by increasing the cost of hiring. Employers would be 
likely to choose male over female candidates just in order to 
avoid the risk of litigation. The Paycheck Fairness Act would 
have the government, not employers and not you, determine how 
much you make. That is the most radical idea in American labor 
law today.
    Thank you very much.
    [The statement of Ms. Furchtgott-Roth follows:]

      Prepared Statement of Diana Furchtgott-Roth, Senior Fellow,
                            Hudson Institute

    Mr. Chairman, members of the Committee, I am honored to be invited 
to testify before your Committee today on the subject of the Paycheck 
Fairness Act. I have followed and written about this and related issues 
for many years. I am the coauthor of two books on women in the labor 
force, ``Women's Figures: An Illustrated Guide to the Economic Progress 
of Women in America,'' and ``The Feminist Dilemma: When Success Is Not 
Enough.''
    Currently I am a senior fellow at the Hudson Institute. From 
February 2003 until April 2005 I was chief economist at the U.S. 
Department of Labor. From 2001 until 2003 I served at the Council of 
Economic Advisers as chief of staff and special adviser. Previously, I 
was a resident fellow at the American Enterprise Institute. I have 
served as Deputy Executive Secretary of the Domestic Policy Council 
under President George H.W. Bush.
    In 2007, the United States leads the industrialized world in job 
creation, and the unemployment rate for adult women is among the lowest 
in the industrialized world. In contrast, unemployment rates for women 
in most other countries are far higher. In February, the latest month 
for which comparable data are available, American women had an 
unemployment rate of 4.3 percent, while unemployment rates for women in 
the Eurozone were 8.9 percent; in France, 9.7 percent; in Germany, 8.3 
percent; and in Spain, 11.9 percent. Only Japan had a lower rate than 
the United States, and its economy is characterized by a slower rate of 
GDP growth.
    Even though American women are so successful, some are concerned 
that they are falling behind. Some believe, with the best of 
intentions, that if wage guidelines were to be implemented, women would 
make even more progress. Representative DeLauro has said that women 
make only 77% of men's wages, and that is why she has reintroduced the 
``Paycheck Fairness Act,'' which she also introduced in the previous 
Congress. The bill would require the government to set wage guidelines 
for different occupations, with the goal of equalizing wages of men and 
women.
    But Representative DeLauro's claim of unequal pay is exaggerated 
and distorted. Worse, her remedy might cause employers to favor hiring 
men, to avoid the possibility of being sued or boycotted under federal 
``guidelines.''
    Men and women generally have equal pay for equal work now--if they 
have the same jobs, responsibilities, and skills. Congresswoman DeLauro 
and Chairman Miller are paid identically, as are many other men and 
women with the same job. Two entry-level cashiers at a supermarket, one 
male and one female, are usually paid the same, as are male and female 
first-year associates at law firms. If they believe they are underpaid, 
they can sue for discrimination under current law--as Walmart employees 
are doing now.
    The 77% figure cited by Representative DeLauro comes from comparing 
the 2005 full-time median annual earnings of women with men compiled by 
the Census Bureau. The 2006 Department of Labor data show that women's 
full-time median weekly earnings are 81% of men's. Comparing men and 
women who work 40 hours weekly yields a ratio of 88%.
    These wage ratios are computed from aggregate government data and 
do not take into account differences in education, job title and 
responsibility, regional labor markets, work experience, occupation, 
and time in the workforce. When economic studies include these major 
determinants of income, rather than simple averages of all men and 
women's salaries, the pay gap shrinks even more. A report by Jody Feder 
and Linda Levine of the Congressional Research Service entitled ``Pay 
Equity Legislation in the 110th Congress,'' \1\ declared that 
``Although these disparities between seemingly comparable men and women 
sometimes are taken as proof of sex-based wage inequities, the data 
have not been adjusted to reflect gender differences in all 
characteristics that can legitimately affect relative wages (e.g. 
college major or uninterrupted years of employment).''
---------------------------------------------------------------------------
    \1\ Jody Feder and Linda Levine, ``Pay Equity Legislation in the 
110th Congress, ``CRS Report for Congress RL31867, Washington, DC: 
Congressional Research Service, Updated January 5, 2007.
---------------------------------------------------------------------------
    Academic studies of gender discrimination focus on the measurement 
of the ``gender wage gap,'' the difference between men's and women's 
earnings. Dozens of studies of the gender wage gap have been published 
in academic journals over the past two decades. These studies attempt 
to measure the contributing effects of all the factors that could 
plausibly explain the wage gap through an econometric technique called 
regression analysis. The remaining portion of the wage gap that cannot 
be explained by measurable variables is frequently termed 
``discrimination.'' Generally, the more explanatory variables that are 
included in the econometric regression analysis, the more of the wage 
gap that can be explained, and the less is the residual portion 
attributable to ``discrimination.'' An analysis that omits relevant 
variables finds a greater unexplained residual.
    When no variables (such as education, job title, regional labor 
market, work experience, occupation, and number of hours worked) are 
used to explain the wage ratio, the wage gap between men and women 
appears to be large. However, simple wage ratios do not take into 
account other determinants of income. They are computed using purely 
mathematical calculations of U.S. labor market data published by the 
Bureau of Labor Statistics of the U.S. Department of Labor. Comparisons 
of men's and women's wages need to be made carefully, because there are 
differences in hours worked by men and women.
    Regression analysis gives us a powerful tool with which to examine 
the wage gap in the context of important determinants of income. 
Regression analysis is a statistical technique that allows us to 
account for other important variables in determining compensation, such 
as education, job title, regional labor market, experience, occupation, 
number of children, and time in the workforce.
    Let's take an example of how regression analysis allows us to 
distinguish different factors that affect earnings. A female nurse 
might earn less than a male orthopedic surgeon. But this would not be 
termed ``unfair'' or ``discrimination'' because the profession of 
surgeon requires more years of education, the surgeon might work 
different hours from the nurse, and the nurse might have fewer 
continuous years of work experience due to family considerations.
    The standard literature in analyzing wage gaps between men and 
women is centered on measuring these varying factors. Professors such 
as Francine Blau and Lawrence Kahn,\2\ Charles Brown and Mary 
Corcoran,\3\ David Macpherson and Barry Hirsch,\4\ and Jane Waldfogel 
\5\ all take these factors into account to a greater or lesser degree. 
There are no peer-reviewed academic studies that measure the wage gap 
between men and women without using regression analysis to account for 
the major factors affecting wages.
---------------------------------------------------------------------------
    \2\ Francine D. Blau and Lawrence M. Kahn, ``The US Gender Pay Gap 
in the 1990s: Slowing Convergence,'' National Bureau of Economic 
Research, Working Paper 10853, October 2004.
    \3\ Charles Brown and Mary Corcoran, ``Sex-Based Differences in 
School Content and the Male/Female Wage Gap,'' Journal of Labor 
Economics 15 (July 1997 Part 1): 431-65
    \4\ David A. Macpherson and Barry T. Hirsh, ``Wages and Gender 
Composition: Why Do Women's Jobs Pay Less?'' Journal of Labor Economics 
13 (July 1995): 426-71.
    \5\ Jane Waldfogel, ``Working Mothers Then and Now: A Cross-Cohort 
Analysis of the Effects of Maternity Leave on Women's Pay,'' in Gender 
and Family Issues in the Workplace, edited by Francine D. Blau and 
Ronald G. Ehrenberg (New York: Russell Sage Foundation, 1997).
    \6\ June O'Neill, ``The Gender Gap in Wages, Circa 2000,'' American 
Economic Review, Vol. 93, No.2, Papers and Proceedings of the One 
Hundred Fifteenth Annual Meeting of the American Economic Association, 
Washington, D.C., January 3-5, 2003 (May 2003), 309-314.
---------------------------------------------------------------------------
    To take one study as an example, Professor June O'Neill, in an 
article published in 2003 in the economics profession's flagship 
journal The American Economic Review,6 shows that the observed 
unadjusted wage ratio between women and men in 2000 is 78.2 percent. 
When data on demographics, education, scores on the Armed Forces 
Qualification Test, and work experience are added, the wage ratio rises 
to 91.4. The addition of variables measuring workplace and occupational 
characteristics, as well as child-related factors, causes the wage 
ratio to rise to 95.1 percent. When the percentage female in the 
occupation is added, the wage ratio becomes 97.5 percent, an 
insignificant difference.
    In another study, Professors Marianne Bertrand of the University of 
Chicago and Kevin Hallock of Cornell University found almost no 
difference in the pay of male and female top corporate executives when 
accounting for size of firm, position in the company, age, seniority, 
and experience.\7\
---------------------------------------------------------------------------
    \7\ Marianne Bertrand and Kevin Hallock, ``The Gender Gap in Top 
Corporate Jobs,'' Industrial and Labor Relations Review, October 2001. 
categories based on objective criteria such as educational 
requirements, skill requirements, independence, working conditions, and 
responsibility * * *''
---------------------------------------------------------------------------
    Lower pay can reflect decisions--by men and women--about field of 
study, occupation, and time in the workforce. Those who don't finish 
high school earn less. College graduates who major in humanities rather 
than the sciences have lower incomes. More women than men choose 
humanities majors.
    Employers pay workers who have taken time out of the work force 
less than those with more experience on the job, and many women work 
less for family reasons. A choice of more time out of the workforce 
with less money rather than more time in the workforce with more income 
is not a social problem. A society that gives men and women these 
choices, as does ours, is something to applaud.
    The ``Paycheck Fairness Act'' would have Washington interfere with 
employers' ability to set wages. Section 7 of the proposed bill reads 
``The Secretary of Labor shall develop guidelines to enable employers 
to evaluate job
    These factors are not only difficult to measure, but favor white 
collar and service jobs over manual, blue collar work. The bill's 
language omits experience, risk, inflexibility of work schedule, or 
physical strength, factors that increase men's wages relative to 
women's. The bill does not include effort, so there is little leeway to 
promote those who work harder.
    Although the guidelines in the Paycheck Fairness Act would be 
``voluntary,'' this can be a slippery slope that leads to compulsory 
standards. Any president could instruct Federal agencies to do business 
only with those firms that meet the guidelines.
    Rather than helping women, the Paycheck Fairness Act would hurt 
them by increasing the costs of hiring. Employers would be likely to 
choose male over female candidates to avoid litigation.
    America leads the world in job creation, and almost 60% of women 
work. The latest unemployment rate for adult women, at 3.4%, is lower 
than that for men, at 3.5%. Women are closing the pay gap not because 
of government statutes and regulations, but because their education is 
increasing and they are spending more time in the workforce. Women they 
earn well over half of all B.A.s and M.A.s awarded, and nearly half of 
professional degrees in law and medicine.
    The Paycheck Fairness Act would have the government--not you, and 
not your boss--to determine how much you make. This is the most radical 
idea in American labor law today.
    Some support the Paycheck Fairness Act because, 40 years after the 
Equal Pay Act, average full-time female workers' wages are still lower 
than men's. However, this so-called wage gap is not necessarily due to 
discrimination. Decisions about field of study, occupation, and time in 
the workforce can lead to lower compensation, both for men and women. 
Those who choose college majors in the humanities rather than in the 
sciences tend to earn less. Many women choose humanities majors, and 
will for that reason make less than both me and women who choose to 
major in computer science. On the other hand, those women who choose 
computer science and engineering have higher incomes than either men or 
women who major in the humanities.
    Men and women who take time out of the workforce to look after 
children, and in order to do so choose jobs with fewer hours or more 
flexible schedules, frequently have lower incomes than those who stay 
in the workforce continuously and work longer hours. Some choose not to 
return to paid work, preferring to be homemakers.
    Some jobs command more than others because people are willing to 
pay more for them. Many jobs are dirty and dangerous, such as oil 
drilling, construction work, mining, and roofing. Other highly paid 
occupations have long inflexible hours, such as truckers, plumbers, and 
electricians. According to data from the Bureau of Labor Statistics, 
these jobs are primarily performed by men. Women are not excluded from 
these or other jobs, but often select professions with a more pleasant 
environment and potentially more flexible schedules, such as teaching 
and office work. Many of these jobs pay less.
    Proponents of wage guidelines, such as the National Committee on 
Pay Equity, cite approvingly on their websites examples of where pay 
equity has been used. One example cited was in Hawaii in 1995, where 
nurses, mostly female, were given $11,500 annual raises to bring their 
salaries in line with those of adult corrections workers, mostly male. 
But working conditions in prisons are far more dangerous and unpleasant 
than the atmosphere in hospitals. Another example cited was in Oregon, 
where the NCPE deemed female clerical specialists were underpaid by 
$7,000 a year when compared with male senior sewer workers. Everyone, 
given a choice of working in an office or a sewer at the same salary, 
would choose the office. You have to pay people more to work with and 
in sewers.
    We already have laws that require equal pay for equal work. These 
laws are enforced by the U.S. Equal Employment Opportunities Commission 
and the
    U.S. Department of Labor. We don't need laws that set guidelines 
for wages by occupation, which would mean equal wages for work of equal 
value. That would have hurt women, the very people the proposed law 
purports to help, by discouraging hiring.
    Thank you for giving me the opportunity to appear before you today. 
I would be glad to answer any questions.
                                 ______
                                 
    Chairman Miller. Dr. Boushey.

  STATEMENT OF HEATHER BOUSHEY, SENIOR ECONOMIST, CENTER FOR 
                  ECONOMIC AND POLICY RESEARCH

    Ms. Boushey. Thank you, Chairman Miller and members of the 
committee, for holding this important hearing today and in 
providing me with the opportunity to testify on gender pay 
equality.
    The gender pay gap should be a concern to all Americans, 
not just to women. The typical wife in the United States brings 
home about a third of her family's income, and over the past 
generation, families with a working wife have been more likely 
to move up the working ladder. Since the late 1970s, the 
additional earnings of wives have made the difference between 
falling and slightly rising incomes for families in the bottom 
40 percent of the income distribution.
    When women are shortchanged, the whole family suffers. So 
why, nearly 50 years after the enactment of the Equal Pay Act, 
is there still a gender pay gap? Is it that women simply make 
poor choices and choose jobs with less pay? Most women do 
continue to work in different kinds of jobs as has been 
discussed here today, but women also continue to take on the 
role of primary caregivers at home. These two facts are behind 
the remaining gap in pay.
    Women are disproportionately represented in occupations 
like nursing, teaching, retail sales, and clerical work, and 
are more likely than men to work in the nonprofit sector. Many 
women's jobs are systemically underpaid relative to similarly 
skilled jobs held by men as discussed by Representative Norton. 
Women who do attend college continue to choose majors to 
prepare them for some less well-paid professions, but even 
within occupations, in the first year out of school, men 
continue to earn more.
    Confronted with the reality of antifamily workplaces, women 
continue to not only do the most caretaking, but also bear the 
economic brunt through lowered lifetime earnings. So clearly 
women, through their choice of occupation, college major and 
their continuing to care for the next generation, are making 
some choices that do put them in lower-paying jobs.
    But economic analysis shows that nearly 40 percent of the 
pay gap remains unexplained by such decisions. This means that 
if women work in the same jobs as men and have the same 
educational and experience levels, they would still be only 
making 90 cents on the dollar. We can find no other explanation 
for this except gender pay discrimination.
    But let me state clearly, this remaining gap is not because 
women are choosing jobs that allow them to better balance work 
and family. Contrary to this myth, the reality is that mothers, 
especially single mothers, are actually less likely to be 
employed in jobs that provide greater flexibility. Only about a 
quarter of today's workforce reports having any workplace 
flexibility. It is the better-educated white and male workers 
who generally have more flexibility to run out of the office 
for a family emergency or take the afternoon off to take the 
kids to the dentist.
    In fact, parents are more likely than not to have 
nonstandard shifts in rotating hours, making work-family 
balance more difficult to achieve. Mothers and caretakers do 
experience discrimination in the workplace, earning 3 to 10 
percent less per child compared to nonmothers in the same jobs 
with the same experience and the same levels of education. 
Better leave policies could make workplaces more family- and 
women-friendly, but, of course, the less a woman earns, the 
lower down the occupational ladder she is, the less likely she 
is to have access to have any kind of leave, paid or unpaid.
    We can close the gap in pay between men and women, but it 
will require that we expect employers to acknowledge most 
workers are also caregivers, and this means workers need some 
flexibility to be both good workers and good parents. We need 
to encourage or even mandate that employers offer workplace 
flexibility when possible and paid parental and sick leave to 
all workers.
    But we can also do more. We can encourage women to go into 
nontraditional jobs and give them more tools to bargain for 
better wages. And women need to know the true value of the jobs 
that they do do. One positive and significant step would be 
encourage workers to share salary information. If a woman 
doesn't know how much her male colleagues are earning, she 
doesn't necessarily know she is being discriminated against. 
Prohibiting employers from limiting the ability of workers to 
share their salary information or retaliating against them in 
any way is an important next step in closing the gender pay 
gap.
    But closing the gender pay gap will also require that 
policies must do more to help workers balance work and family 
life. With the majority of parents now at work and most 
families having no full-time caretaker in the home, employers 
must recognize that workers should not have to choose between 
being good workers and good parents. Congress should take 
action to help women access the information they need to seek 
remedies to pay discrimination, which hopefully will be just 
one of many next steps Congress will take on these issues.
    Thank you for allowing me to share some important facts 
with you today.
    Chairman Miller. Thank you.
    [The statement of Ms. Boushey follows:]

        Prepared Statement of Heather Boushey, Senior Economist,
                Center for Economic and Policy Research

    Thank you Chairman Miller and Members of the Committee for 
providing me with the opportunity to speak to you today.
    My name is Heather Boushey and I am a senior economist at the 
Center for Economic and Policy Research, a non-partisan think tank in 
Washington, DC. My area of expertise is the U.S. labor market, with an 
emphasis on the interconnections between labor, social policy, and 
work/life balance.
    The way to strengthen the middle class is to ensure equal pay for 
women. Most women are in the labor force, including over 70 percent of 
all mothers. Yet, women continue to earn less than men even if they 
have similar educational levels and work in similar kinds of jobs. The 
typical full-time, full-year working woman earns only 77 percent of 
what her male counterparts make. About 40 percent of this gap in pay 
cannot be explained by women's choices.
    The gender pay gap is not just a women's issue. This is a pressing 
issue for middle class families. The typical wife brings home about a 
third of her families total income. Over the past few decades, families 
who had a working wife were more likely to be upwardly mobile. Since 
the late 1970s, the additional earnings of wives has made the 
difference between falling and slightly rising incomes for families in 
the bottom 40 percent of the income distribution.
    Closing the pay gap requires that we address the causes of women's 
lower wages, sex segregation in occupations and the inflexibility of 
the workplace to women's greater responsibilities for care. 
Policymakers may not be able to directly reduce occupational 
segregation, but they can require that employers pay workers doing 
similar jobs similar wages.
    Closing the gender pay gap requires that policymakers do more to 
help families balance work and family life. With the majority of 
parents at work and most families having no full-time caretaker in the 
home, employers must recognize that their workers should not have to 
choose between being good workers and being good parents. It is women 
who continue to not only do the most caretaking, but who bear the brunt 
of the economic penalties of the workplace. Policy initiatives like 
paid sick days, paid family leave, increased access to flexible 
workplaces--without pay penalties--are all important steps in leveling 
the playing field between men and women on the job.
The gender pay gap: Where are we at?
    Nearly half a century after passage of the Equal Pay Act, women 
still earn less than men for doing similar kinds of jobs. The gender 
pay gap among full-time, full-year workers is now at 23 cents, meaning 
that for every dollar a man earns, women earn only 77 cents.
    There are various ways to measure the gender pay gap, but the 
overall trends are similar. Figure 1 shows two different measures: the 
gender annual earnings ratio among full-time, full-year workers and the 
gender wage ratio among full-time workers. The ratio of annual earnings 
began to increase sharply in the 1980s, but then the pace of increases 
slowed during the 1990s. Since 2001, the ratio of annual earnings has 
remained about the same, at around 77 cents on the dollar. The weekly 
earnings ratio follows a similar trend, but showed less convergence 
than annual earnings during the 1990s.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The gender pay gap closed as women's employment patterns and 
educational attainment levels began to look more like men's. Women's 
employment patterns have also begun to look more and more like men's, 
at least some of which was due to rising wages, which pulled women into 
the labor force. Increasingly, women work regardless of their status as 
wives or mothers (Blau and Kahn 2005; Boushey forthcoming; Juhn and 
Murphy 1996). These trends are likely to continue because young women 
are acting as though they intend to work in the paid labor market and 
continue to make significant investments in their work skills, so much 
so that women now outnumber men on college campuses.
Much of the pay gap remains unexplained and cannot be attributed to 
        women's choices
    Research has shown that the gap in pay between men and women is 
partially attributable to the decisions that men and women make in 
terms of college major, choice of occupation, and work experience (Dey 
and Hill 2007). The first two of these--college major and choice of 
occupation--can be considered an honest choice. Women now have access 
to higher education and more kinds of jobs than their mothers did. 
However, there are many aspects of women's employment patterns and pay 
that cannot reasonably be attributed to choice.
    To better understand the gender pay gap, economists use regression-
adjusted estimates of pay for men and women, controlling for all 
measurable productivity-related characteristics of workers. This method 
allows us to compare the pay of men and women with similar 
characteristics and determine what factors contribute to the pay gap 
and what the model cannot explain. Using regression analysis, Blau and 
Kahn (2007) found that while educational attainment levels lowered the 
discrepancy in pay between men and women, other productivity-related 
factors, such as experience, occupation, and industry all increased the 
gap. Overall, nearly a third of the gender pay gap (27.4 percent) can 
be explained by differences in occupations, one-fifth (21.9 percent) 
can be explained by industry, and 10.5 percent can be explained by 
labor force experience.
    However, Blau and Kahn (2007) found that 41.1 percent of the gender 
pay gap remains unexplained. This means that if women worked in the 
same jobs as men and had the same educational and experience levels, 
the gender pay ratio would rise from 80 to 91 percent of men's.
    There are two reasons that economists point to explain the gender 
pay gap. One is the continued segregation of women and men into 
different kinds of jobs and the other is women's continued role as 
caregivers.
    As Blau and Kahn point out, most of the explained portion of the 
gender pay gap is due to differences in the industries and occupations 
that men and women work in. Men continue to be more likely to hold jobs 
as managers and professionals, transportation or construction workers, 
or in heavy manufacturing. Women are disproportionately represented in 
nursing, teaching, retail sales, and clerical work. While the extent to 
which jobs in the U.S. economy are segregated has fallen since the 
1950s, more so for workers with a college degree than for other 
workers, there remains a high degree of occupational segregation 
(England 2005).
    Most women will eventually have children and there remains strong 
social and economic pressure for mothers, not fathers, to spend more 
time caring for children, as well as elderly or ailing relatives. On 
the one hand, in most families, the woman earns less, so it may make 
economic sense to prioritize his career. On the other hand, there is a 
growing body of evidence that points to the conclusion that men face 
large penalties if they take on caregiving roles (Williams 2007). Even 
so, over the past generation, women have made great strides in 
increasing their employment tenure.
    The time out of the labor force has a strong effect on lifetime pay 
for women. Hartmann and Rose (2004) looked over a 15-year period and 
found that prime-age working women earn only 38 percent of what prime-
age men earn. This gender pay gap is about twice as large as the point-
in-time usually reported. The 15-year gap in pay between men and women 
accounts for the fact that women are more likely than men to take off 
time for caregiving and that there are significant pay penalties for 
women when they do this.
    It is also myth that women choose less-paying occupations because 
they provide flexibility to better manage work and family. The 
empirical evidence shows that mothers are actually less likely to be 
employed in jobs that provide them with greater flexibility. In 
general, workers who hold higher positions and are privileged in 
general (better educated, white, male) have more access to all kinds of 
workplace flexibility. Women are less likely than men to have access to 
flexibility, but parents--especially single mothers--are not more 
likely to have access to workplace flexibility (Golden 2001; Golden and 
Wiens-Tuers 2006; McCrate 2005). In fact, parents are more likely to 
have nonstandard shifts and rotating hours, making work/family balance 
more difficult to achieve (Boushey 2006; Presser 2003).
Strengthen the middle class means paying women fairly
    The gender pay gap has real implications for workers and their 
families. For millions of women, getting a job provides necessary 
income and economic security for their families. Wives' earnings are 
important for family economic security in the short-term and the long-
term. Married mothers generally still do not earn as much as their 
husbands--although a third of wives do earn more than their husbands--
but they provide over a third of the family's income (Bureau of Labor 
Statistics 2005).
    For many families, having a working wife can make the difference 
between being middle class and not. When we look across the income 
distribution, families in the higher income brackets are more likely to 
have a working wife and she puts in more hours than less-well off 
families. In recent decades, the families that were upwardly mobile 
were those who had a working wife: recent research by economists at the 
Boston Federal Reserve shows that over the 1980s and 1990s, the 
families that moved up the income ladder were those who had a working 
wife (Bradbury and Katz 2004). The shift in women's work participation 
is not simply about women wanting to work, but it is also about their 
families needing them to work.
    Even though more families have a working wife, family income has 
failed to grow as much as it did in the decades just after World War 
II. Figure 2 shows the growth in median family income for married-
couple families from 1947 through 2005, indexed to 1949.\1\ The dotted 
line shows growth in income among families where the wife does not work 
and the solid line shows growth in income among families where the wife 
does work. The trend line shows what the growth in married-couple 
family income would have been had it remained at its 1947 to 1973 rate 
of growth. Prior to about 1973, married-couple family income grew by 3 
percent per year on average and income growth was about the same for 
families with and without a working wife. However, after the early 
1970s, family income growth comes to a virtual halt for families 
without a working wife, and slowed considerably for families with a 
working wife. After 1973, married-couple families without a working 
wife saw their income grow at an annual average rate of just 0.1 
percent, while married-couple families with a working wife saw annual 
average income growth of less than one percent. Thus, even though 
families are working harder, they are seeing income growth that pales 
in comparison to the decades prior to 1973.
---------------------------------------------------------------------------
    \1\ The trends are similar from 1974 to the present for married-
couple families with and without children, but the Census provides data 
back to 1947 for married-couple families without children, so we use 
this here for comparison.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Low-income women are especially hurt by the gender pay gap. While 
income growth slowed for all families, low-income families are 
particularly dependent on wives' economic contributions, as this made 
the difference between falling and slightly rising incomes. Figure 3 
shows that if wives had not increased their employment rates, families 
across the income distribution would have seen much slower income 
growth and families at the bottom would have seen their incomes fall 
(Mishel, Bernstein, and Allegretto 2005).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The pay gap is particularly hard on single mothers, who don't have 
a choice of whether to work or not. A decade ago, welfare reform 
challenged low-income single mothers to find jobs. Over the next few 
years, the employment rate of single mothers rose sharply, from 71 
percent in 1991 to 82 percent in 2000. Now, not only are single mothers 
as likely to work as married mothers, but they typically work more 
hours. Even so, the typical, unmarried mother teeters on the edge of 
poverty, pulling in barely enough to make ends meet. On top of low 
wages, service sector workers (mostly low-wage women) less likely than 
other workers to have paid health insurance or paid leave, further 
exacerbating the pay gap.
The gender pay gap and the motherhood pay gap
    A key component of the gender pay gap is women's status as primary 
caregivers. In 2005, the last year for which we have data on mothers, 
75 percent of women and 71 percent of mothers aged 25 to 45 were in the 
labor force.\2\ In the 1980s, the sharpest increase in labor force 
participation occurred among married women with children. However, in 
the 1990s, single women with children had the sharpest increase in 
employment--so much so that by the early 2000s, their employment rates 
are almost equal to those of single women without children.
---------------------------------------------------------------------------
    \2\ Author's calculations from the Current Population Survey Annual 
Social and Economic Supplement 2006.
---------------------------------------------------------------------------
    Above and beyond any differences in productivity characteristics 
between mothers and non-mothers, at least some of the gender pay gap is 
attributable to the motherhood pay penalty. Budig and England (2001) 
find that there is a 7 percent wage penalty for mothers compared to 
non-mothers, and about one-third of that gap can be explained by 
differences in experience and seniority. The remaining 4 percent per 
child may arise from effects of motherhood on productivity and/or from 
employer discrimination. Joshi, Paci, and Waldfogel (1999) find that in 
the UK, women with children have lower wages than childless women. 
Among full-time workers, women who went back to work within 12 months 
were as well-paid as childless women, but women who did not go back to 
work within 12 months earned less than both childless women and those 
who maintained better employment continuity, controlling for 
productivity-related characteristics.
    As women now generally work outside the home, few workers have a 
stay-at-home spouse or family member to take care of household chores, 
the children, or the sick or elderly. Yet, employers still often act as 
though workers have a spouse at home to deal with emergencies or to 
cope with home responsibilities if the worker is required to work a 
longer shift than expected. Worker/caregivers need both access to care 
substitutes, such as enriching and affordable daycare and home health 
aides to check in on sick or elderly family members, as well as jobs 
that provide both the flexibility to be away from work at times and 
schedules that are consistent with finding care substitutes.
    Most U.S. workers do not have the right to take paid leave for 
anticipated or unanticipated reasons. Since 1993, over half of U.S. 
workers have had access to anticipated, unpaid leave under the Family 
and Medical Leave Act (FMLA). FMLA provides up to 12 weeks of job-
protected leave to workers when they have a new child or they or a 
family member has a serious illness. Yet, because this leave is unpaid, 
many who need it cannot afford to take it. Among those who needed 
leave, but did not take it, nearly two-thirds reported that they could 
not afford to take unpaid leave (Commission on Leave 1996).\3\ Women 
were more likely than men (37.5 percent compared to 29.6 percent) to 
have received no pay during their longest leave (Waldfogel 2001). 
Studies show that highly-educated women are more likely than less-
educated women to have paid maternity leave and that this significantly 
affects their probability of returning to their employer after their 
child is born (Boushey forthcoming 2008).
---------------------------------------------------------------------------
    \3\ In 2000, 62.3 percent of men and 61.2 percent of women were 
both covered and eligible for FMLA (Cantor et al. 2001). Overall, the 
use of leave under FMLA is quite small: in 2000, only 1.9 percent of 
employees took leave under FMLA, up from 1.2 percent in 1995 (Waldfogel 
2001).
---------------------------------------------------------------------------
    Workers with care responsibilities also need time off for 
unanticipated events, like a sick child or a parent-teacher conference. 
In 2006, the last year for which data are available, just over half (57 
percent) of private sector workers had access to paid sick leave, about 
the same as had it in 1979 (Bureau of Labor Statistics 2006). Higher 
paid workers are more likely to have paid sick days. In 1999, 38 
percent of blue-collar and service employees had access to paid sick 
leave, compared to 81 percent of professional and technical employees 
and 59 percent clerical and sales employees (Bureau of Labor Statistics 
2001). Nearly two-thirds (63 percent) of workers (both full-time and 
part-time) do not have access to paid sick leave to care for a sick 
child (Lovell 2004). The share of employees without paid sick leave for 
themselves or a child's illness rises to 84 percent in construction and 
non-durable manufacturing, and 94 percent in accommodations and food 
services, an industry that disproportionately employs women.
    Workplace flexibility is another option to help families balance 
care and work. Employees in a flexible workplace may be able to set 
their starting and ending hours of work, they might be able to 
determine when to take a break, or have the ability to leave work for a 
short period of time and make up the hours later. Providing flexibility 
does not necessarily cost employers money, but it does require that 
they allow employees to make some decisions about the workplace. About 
a quarter of employees report that they have some kind of flexibility 
(Galinsky, Bond, and Hill 2004, p. 5), while a much larger share of 
employers, anywhere from about half to most report offering some kind 
of flexibility (Bureau of Labor Statistics 2002).\4\
---------------------------------------------------------------------------
    \4\ See Golden (2003) for a review of employer surveys.
---------------------------------------------------------------------------
    Workplace flexibility is a perk more often offered to professional 
or salaried workers, and categorically denied to less-skilled or hourly 
employees. As the labor market tightened over the late 1990s, access to 
workplace flexibility increased slightly, especially for highly sought- 
after professionals (Galinsky, Bond, and Hill 2004). Many workers are 
likely to report that their employer has a flexible workplace policy, 
but in actuality they either cannot use it or they are afraid to ask 
for it, for fear of repercussions. Eaton (2001), for example, 
demonstrates the functional difference between the existence and 
``usability'' of workplace flexibility. Other research has documented 
that usage of workplace flexibility policies is either actively 
discouraged, or has negative career consequences and results in the 
stunted career path of ``mommy-track'' jobs (Bailyn 1993; Williams 
2000; Jurczyk 1998). The gap in usage versus existence of workplace 
flexibility policies may explain why employers are more likely to 
report they offer workplace flexibility than are workers to report they 
have access.
Closing the gap
    To close the gap, policymakers must look to change the workplace so 
it is more hospitable to women and mothers.
    No one can be two places at once. Families where all available 
adults are at work, as is the case in most families, cannot 
simultaneously provide care for children, the sick, or the elderly. We 
cannot continue to rely on private solutions to work/life problems. 
There are policies that can help families address their need for care, 
such as child care or paid time off, but critically, workers need 
Congressional action to make workplaces adapt. Most full-time workers 
do not have a full-time caregiver at home. Increasingly, workers need 
workplaces that are flexible, that recognize workers often have 
complicated care routines. Workers also need stability; they need 
stable work schedules, where they have access to paid time off for the 
unexpected that comes along with caring for themselves and their 
families.
    There are also clear steps Congress can take to limit 
discrimination against women in the workplace. If a woman doesn't know 
how much her male colleagues earn, she may not know she is being 
discriminated against. Prohibiting employers from limiting the ability 
of workers to share their salary information, or retaliating against 
them in any way would be an important next step. Women need to know the 
true--i.e., male--value of the jobs that they do.
                               references
Bailyn, Lotte. 1993. Breaking the Mold: Women, Men and Time in the New 
        Corporate World. New York: Free Press.
Blau, Francine D. , and Lawrence M. Kahn. 2005. Changes in the Labor 
        Supply Behavior of Married Women: 1980-2000. Cambridge, MA: 
        NBER Working Paper No. W11230.
Blau, Francine D., and Lawrence M. Kahn. 2007. The Gender Pay Gap: Have 
        Women Gone as Far as They Can? Academy of Management 
        Perspectives.
Boushey, Heather. 2006. Tag-Team Parenting. Washington, DC: Center for 
        Economic and Policy Research.
__. forthcoming. Opting Out? The Effect of Children on Women's 
        Employment in the United States. Feminist Economics.
__. forthcoming 2008. Family Friendly Policies: Helping Mothers Make 
        Ends Meet. Review of Social Economy.
Bradbury, Katherine, and Jane Katz. 2004. Wives' Work and Family Income 
        Mobility. Boston, MA: Federal Reserve Bank of Boston.
Budig, Michelle J., and Paula England. 2001. The Wage Penalty for 
        Motherhood. American Sociological Review 66:204-225.
Bureau of Labor Statistics. 2001. Employee Benefits in Private 
        Industry. Washington, DC: U.S. Department of Labor.
__. 2002. Workers on Flexible and Shift Schedules in 2001 Summary. 
        Washington, DC: U.S. Department of Labor.
__. 2005. Women in the Labor Force: A Databook. Washington, DC: U.S. 
        Department of Labor.
__. 2006. Employee Benefits in Private Industry. Washington, DC: U.S. 
        Department of Labor.
Cantor, David, Jane Waldfogel, Jeff Kerwin, Mareena McKinley Wright, 
        Kerry Levin, John Rauch, Tracey Hagerty, and Marth Stapleton 
        Kudela. 2001. Balancing the Needs of Families and Employers: 
        Family and Medical Leave Surveys, 2000 Update. Rockville, MD: 
        Westat.
Commission on Leave. 1996. A Workable Balance: Report to Congress on 
        Family and Medical Leave Policies. Washington, DC.
Dey, Judy Goldberg, and Catherine Hill. 2007. Behind the Pay Gap. 
        Washington, DC: AAUW Foundation.
Eaton, Susan. 2001. If You Can Use Them: Flexibility Policies, 
        Organizational Commitment, and Perceived Productivity. Boston, 
        MA: Harvard University, John F. Kennedy School of Government, 
        Faculty Working Papers Series.
England, Paula. 2005. Gender Inequality in Labor Markets: The Role of 
        Motherhood and Segregation. Social Politics: International 
        Studies in Gender, State and Society 12 (2):264-88.
Galinsky, Ellen, James T. Bond, and E. Jeffrey Hill. 2004. When Work 
        Works: A Status Report on Workplace Flexibility. New York, NY: 
        Families and Work Institute.
Golden, Lonnie. 2001. Flexible Work Schedules: Which Workers Get Them? 
        American Behavioral Scientist 44 (7):1157-78.
__. 2003. Flexibility Gaps: Differential Access to Flexible Work 
        Schedules and Location in the U.S.: Alfred P. Sloan Foundation, 
        Program on Workplace, Workforce and Working Families.
Golden, Lonnie, and Barbara Wiens-Tuers. 2006. Overtime Work and Worker 
        Well-being at Work and at Home. Paper read at Allied Social 
        Science Association Meetings, January, at Boston, MA.
Hartmann, Heidi, and Stephen Rose. 2004. Still A Man's Labor Market: 
        The Long-Term Earnings Gap. Washington, DC: Institute for 
        Women's Policy Research.
Joshi, Heather, Pierella Paci, and Jane Waldfogel. 1999. The Wages of 
        Motherhood: Better or Worse? Cambridge Journal of Economics 
        23:543-64.
Juhn, Chinhui, and Kevin M. Murphy. 1996. Wage Inequality and Family 
        Labor Supply. Cambridge, MA: National Bureau of Economic 
        Research.
Jurczyk, Karen. 1998. Time in Women's Everyday Lives: Between Self-
        determination and Conflicting Demands. Time and Society 7 
        (2):283-308.
Lovell, Vicky. 2004. No Time to be Sick: Who Suffers When Workers Don't 
        Have Sick Leave. Washington, DC: Institute for Women's Policy 
        Research.
McCrate, Elaine. 2005. Flexible Hours, Workplace Authority, and 
        Compensating Wage Differentials in the U.S. Feminist Economics 
        11 (1):11-39.
Mishel, Lawrence, Jared Bernstein, and Sylvia Allegretto. 2005. The 
        State of Working America 2004-5. Ithaca, NY: Cornell University 
        Press.
Presser, Harriet B. 2003. Working in a 24/7 Economy: Challenges for 
        American Families. New York: Russell Sage Foundation.
Waldfogel, Jane. 2001. Family and Medical Leave: Evidence from the 2000 
        Surveys. Monthly Labor Review 124 (9):17-23.
Williams, Joan. 2000. Unbending Gender: Why Family and Work Conflict 
        and What to do About It. New York: Oxford University Press.
__. 2007. Perspectives on Work/Family Balance and the Federal Equal 
        Employment Opportunity Laws. Paper read at Equal Employment 
        Opportunity Commission, April 17, at Washington, DC.
                                 ______
                                 
    Chairman Miller. Dr. Hill, if you might, would you walk us 
through again the situation after 1 year of graduation that 
your report addresses?
    Ms. Hill. Certainly. One year after graduation, we find a 
20 percent gap for women making 80 percent as much as their 
male counterparts. We are looking--you heard a lot of different 
numbers about the pay gap today. They are all--we are talking 
about different populations, different age groups, different 
educational levels.
    This group that we are looking at is taken from a U.S. 
Department of Education Federal survey brought by Baccalaureate 
and Beyond data set. It is graduates from college 1 year after 
graduation and then 10 years after graduation. We looked at 
people who graduated in 1999, 2000, and they were interviewed 
in 2001. We also interviewed people--they interviewed people in 
1999 who graduated in 1999--1992, excuse me, 1992 and 1993, and 
they were interviewed in 1994 and in the year 2003. So we 
looked--this is a particular group; it is a group where you 
would expect to see fewer differences. They both invested in 
college. Women actually do slightly better in college than men 
do, similar but a little bit higher in terms of GPA, and that 
is true in every major including math and science. So they are 
doing slightly better in college, they are making the same 
investments, and yet 1 year out we are seeing a very large 
difference.
    There is--part of that difference can be explained by the 
choices that women are making. I think that everyone would 
agree that part of the difference in the pay gap is that women 
make choices. They choose to become social workers or teachers 
and in that situation are choosing to have the kind of--earn 
less, to have--to place themselves in economic insecurity in 
many cases. However, not all of that difference can be 
explained.
    A quarter of that gap right out of college among this 
population, that is 5 percent difference, cannot be explained. 
I know 5 percent doesn't sound like very much, but 10 years 
down the line we see that that unexplained portion of the pay 
gap increased to 12 percent. That is 10 years after. And this 
is only among full-time working men and women. We are not 
including mothers who left the workforce. We don't include 
part-time workers. We are only talking about those who are 
working full time. And we are accounting for all the different 
occupations and categories that we--that we were able to do. 
Like when we got our results, we took a look at the literature, 
and we looked at many articles in American Economics Review and 
Journal of Labor Economics, and we found that the majority of 
those articles agree that a portion of the pay gap--and people 
disagree about the portion--but people agree that we just can't 
explain it. And I think that suggests that something else is 
going on. We have a list in our----
    Chairman Miller. Well, I guess my concern is that the 
suggestion is--and I want to make sure that I am interpreting 
this right--but the suggestion is sort of right out of the 
starting blocks here, even in some cases you suggest where 
women perhaps have a higher GPA, and the same age and going 
into the same professions, the process begins. It is one thing 
when people say after years of experience, and where did you 
work before, and they transfer all of that in, there is, in 
theory, a rational way of making that decision. But at the 
beginning of the process, it seems to me that a lot of that is 
whittled out in that situation.
    Ms. Hill. That is exactly right.
    Chairman Miller. I guess that is what I find kind of 
stunning about the remark and also the theory that these are 
new people going into theoretically an enlightened marketplace 
that is now aware of these issues, but it doesn't seem to be 
changing. It may have changed in the magnitude to some, but the 
fact still remains, and I just am trying to get a correct 
characterization of what it is people have heard over the last 
24 hours about this group of women.
    Ms. Hill. That is right. And I think that it is interesting 
that it is a group of women who are in their twenties and 
thirties, group of men and women in their twenties and 
thirties. We only included people in our analysis that 
graduated before the age of 35 just to keep it so we were 
talking as much as possible about like and like.
    Chairman Miller. And you are comfortable that is what you 
did?
    Ms. Hill. Yes.
    Chairman Miller. Okay. Ms. Farmer, in your situation you 
are dealing with likes and like, except the fact of male-
female. In terms of job description, job responsibilities, 
performance, you were still paid less.
    Ms. Farmer. Correct.
    Chairman Miller. And that is by the standard set forth by 
your employer, in this case Wal-Mart?
    Ms. Farmer. Correct.
    Chairman Miller. So then when you were taking your 
experience, your skill and your knowledge and training and 
others for that same job, you were paid less----
    Ms. Farmer. Yes.
    Chairman Miller [continuing]. Than they started at when 
they started in your job that you trained them for.
    Ms. Farmer. Yes.
    Chairman Miller. Is there something I am missing here? 
Because, I mean, it sounds like likes for likes here, I mean 
the extraneous situation going on here. That is why I guess you 
are in court.
    Ms. Farmer. I know that getting to the salaried position 
that I wanted, you don't really question at that point in time. 
You are getting $28,000 instead of $30,000, you are just pretty 
happy you have the position.
    Chairman Miller. Let me understand something, because one 
of the things in the Paycheck Fairness Act is a question of 
whether or not an employer can punish employees for sharing 
information, apparently not that unusual of a situation whether 
it is a law firm or whether it is a retail outfit. This 
information that you came across was because of your position. 
This wasn't a question of you had access--I mean--well, let me 
ask you, were people sharing this information, or you knew this 
because of your position?
    Ms. Farmer. Both.
    Chairman Miller. So people would talk about what their 
salaries were, what they started at and back and forth?
    Ms. Farmer. Yes.
    Chairman Miller. Okay. So that was available. And there 
were not any repercussions taken for that activity with that 
employer?
    Ms. Farmer. No.
    Chairman Miller. Okay. Well, that is helpful to know. There 
is some suggestion that it may be more prevalent in 
professional occupations. I don't know if one of you want to 
comment, but there is some suggestion it is a bigger problem in 
professions about sharing pay, the fact that you can see 
columns in the weekly--you know, in Newsweek and Time or 
Business Week suggesting how you might want to handle this so 
you don't get fired. Actually, it was just in a recent column, 
I think, in Business Week. So apparently you do it at some 
jeopardy in today's workplace according to the business 
journals.
    Ms. Farmer. It was considered gross misconduct.
    Chairman Miller. To share pay information?
    Ms. Farmer. Yes, it was. So it was never anything I would 
say, hey, what do you get paid?
    Chairman Miller. They suggest you don't actually in the 
column. That is not a good way to begin. Thank you very much.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Dr. Hill, in that study, the 1 year out of school where 
they were already having a difference in pay, is that comparing 
the same jobs?
    Ms. Hill. I think the point--and like all researchers, we 
have to use categories of jobs that include many different 
kinds of jobs in the same thing, in the same category. But I 
will point out the categories we use are fairly standard 
categories. We have a limited sample size.
    Mr. McKeon. Does that mean no, it is not comparing the same 
job?
    Ms. Hill. They are not exactly the same jobs. They are very 
similar. But I also want to point out 1 year out, when we say 
medical professions, for example, we are not talking about 
doctors and nurses----
    Mr. McKeon. I was just trying to find out if we were 
comparing the same job.
    Ms. Hill. Because they just graduated within 1 year from 
medical professions, they are all going to be----
    Mr. McKeon. Would nurses in the same field be paid the same 
whether they were male or female?
    Ms. Hill. What we found is that--these are all going to be 
4-year college graduates--you are correct that they are not 
identical jobs. They are similar.
    Mr. McKeon. Did you do any study on comparable jobs, on 
identical jobs?
    Ms. Hill. There is one study by Claudia Golden that I would 
recommend which looks at----
    Mr. McKeon. What I am really trying to find out, it seems 
to me that what we are talking about is the same pay for the 
same job. And I am trying to make sure that that is what we are 
really talking about, instead of saying that there is a big 
difference because the jobs are different, you know, because I 
think probably we would have agreement saying that there should 
be equal pay for equal jobs, and I am just trying to find out 
if your study really showed that.
    Now, I would like to ask another thing, too. Earlier 
testimony said that there were 6,000 businesses that are owned 
by women. Has anybody done a study to know if women who are 
heading up companies do a better job of paying equal pay for 
equal jobs?
    Ms. Hill. That is a good question. I don't know if that 
particular study--I can certainly get back to you on that.
    Mr. McKeon. That would, I think, be interesting to know.
    Ms. Boushey. Can I comment on the jobs and the question you 
are asking?
    Mr. McKeon. Let me see if I have time after this question. 
We can come back to that.
    Have you had the opportunity to review the study by the 
American Association of University Women that Dr. Hill 
presented? Would you care to comment on the methodology 
employed in that study, and do you think it presents an 
accurate picture?
    Ms. Furchtgott-Roth. Well, I think it is clear that a lot 
of work has gone into this study. I think that one important 
variable it omits is accumulated lifetime work experience, and 
that is why you find pay gaps diverge over a 10- or 20-year 
period, because many women take time off to look after their 
children. Eighty percent of women in America have children, and 
some of them cut back their hours or choose jobs that are more 
family-friendly, that involve fewer hours. Full time is any 
amount of hours over 35 hours per week, and you can work full 
time 35 hours a week, and you can work full time 60 hours a 
week. It is natural people who work full time 60 hours per week 
get paid more than those who work full time 35 hours per week.
    I think what is a significant difference is the choice of 
industry and occupational categories. And I have the tables 
with the regression analysis right here on pages 42 and 44. And 
the occupations chosen are, for example, you can take one that 
is finance insurance and real estate, and industry. There is no 
reason that a male--if there is a male who goes into, say, 
investment banking on Wall Street, that would fit into finance 
insurance and real estate. Say a profession that is more female 
dominated, real estate sales, say real estate sales in Alabama, 
there is no reason that that female and that male should get 
paid the same.
    This is a very broad industry category. There is also 
regional differences that aren't accounted for. There isn't any 
reason that people in the same industry should be paid the 
same. I can go down this list of industries. Personal 
hospitality services, entertainment and recreation, you can get 
someone in entertainment and recreation, you can get someone in 
Los Angeles in the movie-producing industry who strikes it rich 
with a movie, and then you can also get somebody who does, you 
know, singing somewhere else and who is unsuccessful. There is 
no reason that people have to get paid the same in the same 
industry and occupation.
    There is a wide variation of jobs, even within investment 
banking, for example, depending on how successful you are or 
what kind of position you have in the investment banking 
industry. So in order to claim wage discrimination, you need to 
have like-for-like, precise categories of jobs, the way Ms. 
Farmer did. She found that men who were doing the same job as 
her were paid more. That is a clear case of discrimination. But 
a male and female in one occupation or industry, there is no 
case for wage discrimination.
    Mr. McKeon. That is how it sounded like to me, that hers 
was pretty clear. If you moved up to the--LTE?
    Ms. Farmer. CLE.
    Mr. McKeon. Manager. And you were paid $28,000, and men 
were paid $30,000.
    Ms. Farmer. Correct.
    Mr. McKeon. Did someone have a book that sets the pay? Or 
that is probably what you will try to find out in court, if 
there is a book that sets the pay that if a woman achieves this 
job, she gets paid $28-; if a man gets this job, he gets paid 
$30-. Or did they have like a range of $28- to $30-, and they 
just arbitrarily put women at the lower end and men at the 
higher end. I think we would all agree that that is 
discriminatory, and that should not be done. I am just trying 
to find out if these other things--equal pay is for the equal 
job.
    Mr. Chairman, I see my time has expired. Thank you.
    Mr. Kildee [presiding]. Thank you. The gentlelady from 
California Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    As a human resources professional for 20 years before I got 
here, and I have been here 15 years, so it has been a while, I 
assumed that employees did talk to each other about their pay, 
and that if there was a problem with that pay, it was probably 
something that we--and if we had to explain it, believe me, it 
was probably an unfairness in there. Because workers know who 
are the high performers, they know who actually has brought 
more to the table than others. But with fair pay policies, 
actually there is very little controversy over what an 
individual gets paid.
    And to go along with that--and this relates to you, Ms. 
Farmer--in the 1970s when I was this human resources manager, 
it was my responsibility to put together the pay schedules and 
pay levels and pay ranges for our company, which was a high-
tech manufacturing company of telecommunications equipment. And 
I was a member of the executive staff, and I was the only 
woman--female member of the executive staff. And every year I 
brought to the executive committee the ranges for the upcoming 
year.
    Well, when I first started comparing the salaries, it was 
very clear to me that the assembly supervisors in this 
manufacturing company earned--they were like two steps below, 
two levels below the test technician supervisors. So I looked 
at it and compared it with the outside world and what was going 
on inside the company.
    So year one I recommended to bring the assembly supervisors 
up to the test technicians because it wasn't the same job, but 
it was equal value. The test technicians had small groups, they 
had technical groups, small. The assembly managers had big 
groups, but their jobs were absolutely as important when you 
valued one against the other.
    First year I didn't get them to equal. I got them one step 
below instead of two steps. The second year I argued and argued 
and argued, never said anything about gender, argued the point 
of value; left the room, we had a break; came back into the 
room, and I heard the president of the company explaining to 
the rest of the men--you won't be surprised about this, Dale--
the rest of the men on the committee the reason she is fighting 
so hard is the assembly supervisors are women. Indeed. That 
year they--and then the men saw how--what they were doing, and 
they brought that range up also.
    It is too easy to say these are women's jobs, these are 
men's, and they aren't valued the same. That was in the 1970s. 
So I am surprised that we haven't come further than that.
    So what I wanted to ask you, Ms. Farmer, is who advocated 
for you? Did you have anybody in your company that helped you 
along through the process of challenging the pay structure?
    Ms. Farmer. With my knowledge and how to go forth with it.
    Ms. Woolsey. Was there anybody in the human resources that 
could help you? And this is modern day.
    Ms. Farmer. Right. Wal-Mart has a procedure that you would 
go through of speaking to your assistant manager about it, the 
store manager, the district manager, HR. You go on from there.
    Ms. Woolsey. And then you got your pink slip.
    Ms. Farmer. Yeah. I did get my pink slip.
    Ms. Woolsey. I am sorry about that, and I hope that you 
prevail in your suit, believe me.
    And I want to just talk a little bit now about what we are 
talking about with Ms. Boushey when we talk about bridging work 
and family. I was hoping you would talk about the Balancing 
Act, which I will introduce this year, which is really an 
omnibus big, big bill to bridge work and family. And we had 59 
cosponsors in the last Congress. We are going to do it again.
    The Balancing Act does provide for paid family leave, it 
enhances child care, it makes universal preschool available to 
all children, and it provides for after-school programs, and it 
also encourages more flexible workplaces with telecommuting, et 
cetera, et cetera.
    It is very, very clear to me and many of my colleagues that 
unless we bridge work and family, it is kids that are going to 
be the ones left out because parents have to put food on the 
table. Quite often they can't even get to the table to eat it 
with their kids.
    So I look forward to working with you on that, and we are 
going to have a hearing on my subcommittee, the Workforce 
Protection Committee, and the Balancing Act will be a part of 
it.
    Thank you, Mr. Chairman.
    Mr. Kildee. Thank you.
    The gentleman from Louisiana Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    This is a very, very important issue in front of us today, 
and I can tell you it is an issue that I care deeply about. But 
I have some real concerns about the methodology in the study 
that you have alluded to, Dr. Hill. And first of all, you could 
have provided the study to us for our review beforehand. I 
think it may have made the debate and discussion more 
substantive. So perhaps for future reference, that could be 
something----
    Ms. Hill. I do believe we did make the report and summary 
available.
    Mr. Boustany. I did not have it in my packet.
    Ms. Hill. I am sorry.
    Mr. Boustany. One reason I point out my concerns about the 
methodology is this: As a medical doctor who is very well 
familiar with the medical education system and the postgraduate 
medical education, when a student graduates from medical 
school, they are accepted into an internship or residency, and, 
per institution, all get equal pay in that first year by 
institution. It is not even broken down by specialty, where 
perhaps surgeons may be working much longer hours than 
internists or others. They all get equal pay by institution. 
And so for that reason I think--and you cited that example 
earlier in your answers to questions--I think that raised an 
antenna for me, and I have concerns about the methodology. So, 
Ms. Roth, I probably mispronounced your name----
    Ms. Hill. May I respond to those questions?
    Mr. Boustany. Yes.
    Ms. Hill. I would like to point out that when we made our 
findings, we took a look at the literature in economics, we 
went to the American Economics Review, we went to the Journal 
of Labor Economics, and we read--and we have those all listed 
in this report. And I want to point out that across the board 
they find the same findings that we came across, that women are 
being paid less, that that--when we control for all the 
factors, the kinds of jobs, the field of study, the hours 
worked, parenthood, demographics, region, age, when we compare 
and look at all those factors, not only do we make this 
finding, but many, many other economists have made this 
finding. And if you look at chapter 4, you will see a list of 
some of the other journal articles that made the same kinds of 
findings.
    Mr. Boustany. I am just stating what the facts are in 
health care, and I point out that there is potentially an error 
in the study with regard to health care.
    Ms. Hill. I believe, sir, that that is one example. Now 
there are other examples.
    Mr. Boustany. That may be, but we need to have facts here 
if we are going to legislate. I think that is critical.
    Ms. Furchtgott-Roth, have you had an opportunity to review 
that specific study? And could you comment on the methodology, 
and do you think it presents an accurate picture, that specific 
study?
    Ms. Furchtgott-Roth. Yes. I have had--I have had an 
opportunity to review the study, and obviously a lot of work 
went into it, but I think that the main flaws are, first of 
all, that it doesn't account for accumulated hours of lifetime 
work. And many women take time out of their work life to look 
after children, and also they cut back on their hours after 
they have children to have more family-friendly hours.
    Secondly, it uses very broad occupational categories. And 
again, I can read from page 42 where it lists occupational 
categories, administrative, clerical support, business and 
management, editing, writing, performing, engineering and 
architecture, research, science and technology. Within each of 
these occupations, those are very broad types of different 
jobs. And saying that two people in these broad occupational 
categories are not paid the same is not evidence of 
discrimination because you have to look at what job they are 
doing; are they in the same firm; are they not in the same 
firm?
    I would also like to add, there are many studies in the 
economic literature that find very small or nonexistent gaps. 
For example, Marianne Bertrand and Kevin Hallock, The Gender 
Gap in Top Corporate Jobs in Industrial Labor Relations Review 
shows no difference in the pay of men and women in top 
corporate jobs, adjusting for a wide variety of factors. This 
is looking at the same-sized firms, looking at the experience 
they have had, looking at their age. Or Charles Brown and Mary 
Corcoran, Sex-Based Differences in School Content and the Male/
Female Wage Gap in the Journal of Labor Economics shows tiny, 
tiny differences. And the June O'Neill study in the American 
Economic Review--by the way, it is the American Economic 
Review, not the American Economics Review is the title of the 
journal. And these are peer-reviewed studies, and they show 
very, very small gaps. So it is not clear that the majority of 
the economics profession, the literature accords with Dr. 
Hill's findings.
    Mr. Boustany. Well, again, I just simply point out that I 
believe some of the findings, as best I can tell, and based on 
your statements, Dr. Hill, with regard to health care, 
particularly medical school graduates----
    Ms. Hill. Yes. May I answer that, please, sir? When medical 
school graduates--remember, we are talking about people from 4-
year undergraduates, 1 year out. They are not graduate 
students.
    Mr. Boustany. I am talking about medical students who go on 
to medical----
    Ms. Hill. That is another population.
    Mr. Boustany. No, no. Undergraduates who are pre-med 
students go to medical school if they are accepted. You have to 
compare apples to apples in this. I do know that upon 
graduation from medical school, when they do enter employment, 
when they do enter employment, they enter a residency program. 
And by institution every single resident within that program 
gets the exact same pay.
    Ms. Hill. That is wonderful for that example. And I think 
that there are examples----
    Mr. Boustany. You used the example earlier to talk about 
the wage gap, and I point out that error. So I think it is 
important that we understand accurately the methodology being 
used in the study if we are going to base our decisions on 
legislation using this study. I want to get to the heart of the 
matter. I want to understand the problem, and I want to make 
sure that we are making the right decisions as we go forward. 
And that is simply the case I am trying to make. And my time 
has expired. Mr. Chairman, you have been very generous. Thank 
you.
    Mr. Kildee. Thank you, Doctor. The gentleman from New 
Jersey Mr. Andrews.
    Mr. Andrews. Thank you. I thank each of the witnesses for 
outstanding and very illuminating testimony.
    Dr. Furchtgott-Roth----
    Ms. Furchtgott-Roth. Excuse me. I am not a doctor. I don't 
want to pretend to be one.
    Mr. Andrews. I am sorry, Ms. Furchtgott-Roth. You speak 
with authority, and I thought that you were at that level. I am 
sure your pay is equal to what it would be if you were a 
doctor.
    Ms. Furchtgott-Roth. Well, I am sure that all of us are 
worth a lot more than what we are paid.
    Mr. Andrews. I am sure.
    One of the points that you make is that a flaw--a perceived 
flaw in the study Dr. Hill talks about is they don't account 
for hours of accumulated work in the lifetime. But how would 
that explain the differential for people who are 1 year out of 
college? Is it true that people that are 1 year out of college 
would have about the same hours of accumulated work in the 
lifetime? How do you explain the differential between men and 
women just 1 year out of college then?
    Ms. Furchtgott-Roth. Well, I think that the differential 
between men and women 1 year out of college can be explained by 
these different choices of occupations and industries. And I 
can read them again, but it is easy----
    Mr. Andrews. If I may, this study accounted for that. They 
accounted for that differential and still found a 5 percent 
difference after 1 year for which there was no regression 
analysis explanation from one of the variables. So what is the 
explanation for that 5 percent?
    Ms. Furchtgott-Roth. The explanation for the 5 percent is 
they are not looking at two people in the same job. And so, for 
example, to take one category, finance insurance and real 
estate, if you have more men that go into investment banking 
and more women that go into being bank tellers, for example, or 
lower positions----
    Mr. Andrews. But these are college graduates. I don't think 
many college graduates become bank tellers as opposed to 
investment bankers. Wouldn't they be more likely both to be 
investment bankers?
    Ms. Furchtgott-Roth. It you take the highest-paying jobs on 
Wall Street and the lowest-paying jobs for graduates, these 
jobs are all contained in this category.
    Mr. Andrews. Is there evidence that shows that a 
disproportionate number of men go to Wall Street and a 
disproportionate number of women go to lower-paying financial 
services jobs?
    Ms. Furchtgott-Roth. There is evidence that a higher 
percentage of men go to investment banking jobs on Wall Street, 
yes.
    Mr. Andrews. I would like you to submit that for the record 
if you would, that would show that.
    And perhaps that leads me to one of my other lines of 
questioning. In your testimony you talk about variables that 
explain this vast and chronic differential between the pay of 
men and women, and you talk about things like differences in 
education. I can understand that if someone has a Ph.D. versus 
having an associate's degree, there would be a difference. But 
how about something like job title; isn't that an awfully 
subjective variable that might be explained by inherent 
cultural discrimination?
    I will give you an example. I have seen--and this is just 
anecdotal. But I have seen some circumstances where a man who 
keeps track of his fellow employees and manages the budget and 
does the purchasing for an organization is called the executive 
vice president for administration, but a woman who does 
precisely the same function is called an office manager. Now, 
isn't it--I mean, so doesn't job title really mask some 
discriminatory subjective attitudes that can't be 
quantitatively measured the way you do?
    Ms. Furchtgott-Roth. Job titles vary by firm. Each firm 
selects its own portfolio of job titles.
    Mr. Andrews. Right. And who does the selection of the 
titles?
    Ms. Furchtgott-Roth. Right now each individual firm selects 
the job titles.
    Mr. Andrews. The boss, the boss does.
    Ms. Furchtgott-Roth. The boss selects the titles.
    Mr. Andrews. Do you agree or disagree with the proposition 
that there is a disproportionate number of men in executive 
boss positions relative to women in large business 
organizations? You think that is true?
    Ms. Furchtgott-Roth. There are more women--there are more 
men at the top of companies.
    Mr. Andrews. So the men are creating the job titles, and 
the job titles are being used as a criterion to do the analysis 
that explains the wage differential?
    Ms. Furchtgott-Roth. The job titles in different firms 
reflect different--different duties within that firm. So you 
would have--you are--supposedly the way things work is two 
office managers in the same firm, a male and a female, should 
be paid the same. An office manager in one firm isn't 
necessarily paid the same as an office manager in another firm.
    Mr. Andrews. But, of course, if the person who defines the 
term ``office manager'' brings a certain set of preconceived 
notions about the limitations and abilities of men and women, 
you may be creating a self-fulfilling prophecy where the woman 
is overpaid as a result of that discriminatory categorization, 
wouldn't you?
    Ms. Furchtgott-Roth. I think that what you find is, 
especially in a time with 4.4 percent unemployment, there are 
so many job opportunities that someone who is labeled with a 
lower job title finds many other opportunities, and employers 
right now have to fight hard to keep workers. And people who 
find they are not paid the same are likely to find other jobs. 
For example----
    Mr. Andrews. I want to talk with Ms. Farmer for a moment, 
if I could have a couple more seconds. I thought that her story 
was so symbolic of stories that I have heard from women that I 
have known and women in my family, that women train the people 
who then supervisor them and who make more money than they do.
    I am just curious, how many women have seen that kind of 
situation in their life, if they could just raise their hand, 
that are in the room.
    Yeah. Okay. I yield back the balance of my time.
    Mr. Kildee. Thank you.
    The gentleman from Minnesota Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    I appreciate that scientific survey from Mr. Andrews. 
Unfortunately we don't base our--at least we shouldn't be 
basing our decisions on legislation based on that sort of 
scientific survey. It was interesting though. Thank you for 
doing that.
    Mr. Andrews. You are welcome.
    Mr. Kline. We can go several ways with this. I have 
appreciated the discussion a lot about the methodology in 
various surveys, and Dr. Hill has explained hers several times, 
and Ms. Furchtgott-Roth has challenged perhaps some of that.
    It is important that we understand the methodology that we 
have. We have surveys that we can count on, and it seems to me 
there is still quite a bit to discuss there. But I want to move 
to another area that is of some concern here, and that is a 
type of discrimination that comes in hiring that is sort of 
under the table, if we could. And I am thinking of an example 
that is starting to occur across the country right now, because 
we have members of the National Guard who have been employed 
and deployed in ways that they weren't expected to be. And so 
you have the sort of a choice where you have got an employer, 
looking at somebody who is coming to work, one potential 
employee is a member of the National Guard, one isn't, and the 
employer is unofficially but nevertheless asking them 
questions. Well, who would I--who do I want, somebody who is 
going to be gone 18 months every 4 or 5 years or somebody who 
is not? And I know it is something we have to guard about in 
all sorts of discrimination issues.
    And that brings me to this bill, I think it is H.R. 1338, 
the Paycheck Fairness Act. And, Ms. Furchtgott-Roth, you said 
that you thought that such an act would increase the cost of 
hiring, and I am afraid it might lead to some other things. 
Could you explain that and what you think might follow from 
that? Is that correct? Do I have that right?
    Ms. Furchtgott-Roth. Right. Yes. Because if employers have 
to go by particular guidelines and, say, the guidelines--I 
would imagine the guidelines would require higher pay in a 
particular occupation than is being paid right now, I would 
assume the guidelines would not lower anyone's pay, then the 
employer would face a higher cost for a particular class of 
workers. And if he has higher pay for that class of workers, he 
has the choice of hiring fewer of those workers or getting some 
kind of technology, such as we see in these supermarkets where 
you have self-service checkout rather than cashiers.
    So people aren't just going to sit and take higher wages 
imposed on them by the government. They are going to adjust in 
some way, and that means there will be fewer jobs available for 
those types of occupations. You get the same situation 
increasing the minimum wage where people who cannot produce, 
say, more than $5.15 or $6 an hour just don't get hired. We see 
that situation in other countries around the world.
    Mr. Kline. So in this case, the increase of cost of hiring 
wouldn't have any gender implications. It is simply a choice 
of--in your example of an automation, for example, instead of 
hiring employees. It is not gender-specific.
    Ms. Furchtgott-Roth. Right. In the minimum wage example, 
yes. But under the Paycheck Fairness Act, female-dominated 
occupations had their salaries artificially raised, then you 
would find that women suffered because fewer of them would have 
been hired.
    Mr. Kline. Yes. You talk about guidelines. I want to jump 
to another question. I have written so many notes here, I am 
not sure that I have got this right. But the legislation we 
have been discussing, this Paycheck Fairness Act, calls for the 
Department of Labor to establish voluntary guidelines for 
employers to compare wages and pay scales. How do you think 
that would work? What would be the effect of that?
    Ms. Furchtgott-Roth. I think once the Department of Labor 
had established these voluntary guidelines, there would be 
pressure on companies through different avenues to stick to 
these guidelines. For example, the Federal Government would 
have the power, the President would have the power to say the 
Federal Government only contracts with those firms that stick 
with the guidelines. There might be other groups such as--other 
groups such as the Rainbow/PUSH Coalition or some other groups 
that would say that consumers should not buy products from 
firms that do not follow these guidelines. So it would be 
pressure on companies to follow the guidelines that were set 
out; even though they would come in as voluntary, there would 
be pressure to abide by them.
    Mr. Kline. I see.
    Mr. Chairman, I see my time has expired, and in a futile 
effort to encourage my colleagues to stay within the limit, I 
will yield back.
    Mr. Kildee. Thank you, Mr. Kline.
    The gentleman from Pennsylvania Mr. Sestak.
    Mr. Sestak. Thank you, Mr. Chairman.
    Dr. Hill, you said that--in your testimony that women who 
go to highly selective colleges actually earn less than those 
men who go to minimally selective colleges. Why is that, and 
what is the difference in the percentage?
    Ms. Hill. There is a sizable difference in the earnings of 
women and men, and it is such a large difference in the 
earnings of women and men that it actually is larger than some 
of these other differences we see among, for example, in 
college selectivity.
    Yes, college selectivity makes a difference in earnings for 
both men and women, but it makes such a minor difference really 
when you compare the gender difference. The gender difference 
is so much larger than any of the other differences that we 
see. So when women are--there are many factors that affect 
people's pay, and we looked at really a very comprehensive list 
of those factors to try to uncover discrimination.
    It is very hard to measure discrimination directly. I think 
it is a very challenging problem because people aren't going to 
tell you they are discriminating, and most people don't know 
they are discriminating when they do so.
    With your permission, sir, I wanted to point out one study 
that was done by Claudia Golden where she looked at worker 
stress, when they turn to something called blind auditions. 
When they turned and changed to--I think it was in the 1980s--
all the orchestras changed so you couldn't see who was playing 
the instrument, and suddenly women were getting new jobs they 
had never gotten before, and the number of women in orchestras 
shot up. That is, I think, a very interesting case.
    We can't do that in most employment situations because you 
know someone is a man or a woman when you look at them or when 
you hear their voice or you see their name. So it is not easy 
to have blind auditions in the whole economy.
    I am sorry if I was too long in that answer.
    Mr. Sestak. Doctor, I wanted to ask you a question. I was 
taken by your testimony about a more hospitable workplace. I 
come from a background where we didn't have women at sea 35 
years ago until when I had to carry a battle group off 
Afghanistan. The first night off Afghanistan, there was a young 
27-year-old woman pilot, F-18, who in the middle of the night, 
the first night we were off there, dove down from 20,000 feet 
without permission, which she was supposed to ask, to 3,000 
feet to strafe, after four special soldiers had been killed, to 
save the others, to get them away because she couldn't use 
guided missiles. They were just too close to the Taliban.
    So I have watched this real progress through the military 
over the years. Now, the challenge for us, as I was leaving the 
military, was how do we keep her in? How do we let her leave 
the military, have her child and come back without losing, 
because she is a wanted asset? How do we give them--and as we 
do, we are about to deploy, but we want them to stay in, so we 
let them not deploy until later.
    So I am taken by some of the suggestions that you have in 
here because of trying--just because I have seen it work, and I 
have seen us come to grips with having this valued human 
capital be retained.
    Can you talk a bit about what I see are about the three 
major issues you have here, about how to make the place more 
hospitable, and why it is a good way to approach? At least that 
is my take from my experience.
    Ms. Boushey. Thank you. I will. That is an excellent 
question.
    I think one of the things--just to start, one of the things 
I found most interesting about Dr. Hill's research is women do 
so well in school. They do better than men in most sciences and 
math and across the board in terms of majors. And when they get 
out, they are very valuable employees, and your example there 
is very illustrative of that. And it is amazing that employers 
aren't doing more and that Congress isn't doing more to keep 
all of these very talented women in the labor force. And, of 
course, a lot of it does have to do with the fact that women do 
take on the primary responsibility for caretaking within the 
home.
    There is a number of ways to sort of get at helping them to 
be both good parents, but also to be good workers. One, of 
course, is to encourage men to take on more of that 
responsibility, and a big piece of that would be to make sure 
that every worker, not just women, but that every worker had 
access to paid leave both when their kid gets sick and also 
paid leave for maternity. Yesterday was a very big day on that 
issue. Washington State became the second State to pass 
legislation for paid family leave for pregnancy, 5 weeks, $250 
a week. And that is great, and it is gender-neutral0 so that 
both men and women have access to that kind of leave. So that 
the fabulous fighter pilot, she can take off some time, but 
then her husband can take off some time, and that would make it 
easier for her to take go back to work and to be good at both.
    Paid sick leave is, of course, another pressing and 
important issue. Two-thirds of workers do not have the right to 
take a paid day if their kid gets sick. That is a lot of 
people. I am sure all of us in this room have paid sick days, 
but there is millions of American workers, most of them are at 
the bottom end of the labor force, the bottom end of the income 
distribution who don't have that right. That can make keeping 
your job very, very difficult, because if your kid gets sick, 
most people will say, well, I am going to take him to the 
doctor, I am going to stay home. That is more important than 
your job. But your job is important, too, to help families make 
ends meet.
    And then third, and I think this is very important, is 
flexibility. Your example of the fighter pilot, that is where I 
can't imagine what the flexibility would look like. But for 
many jobs here in the United States, employers could offer some 
flexibility to workers and not just the high-end workers, 
across the workplace.
    The U.K. has passed a very interesting piece of legislation 
which they call a soft touch flexibility where the law says 
that every employee has the right to ask for flexibility. They 
don't have to get granted it, but if they ask, the firm has to 
come up with a good reason why they can't have some sort of 
flexibility. That might be a really good start here for 
encouraging people to think creatively, both employees and 
employers working together.
    Mr. Sestak. Thank you. It is interesting. The first two you 
mentioned we actually have today in the military.
    Ms. Boushey. Of course. Yes. And universal day care.
    Mr. Kildee. The gentlelady from California Mrs. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you to all for being here.
    I wanted to go back to Congresswoman DeLauro's legislation 
for a second because I think embodied in that is kind of the 
criticism that if we move forward, and we keep better records, 
and we enforce the law, that we provide these guidelines, that 
somehow women wouldn't be hired. And I think, Ms. Furchtgott-
Roth, you addressed that. I wanted to ask if you would respond 
to that for me, and then the others as well.
    It seems to me that we run into this when we talk about 
minimum wage as well, that somehow workers aren't going to be 
hired. Have we seen evidence of that particularly? And what do 
we know about the impacts that that would have? Did you want to 
respond to clarify? Because the other issue is under the law, 
people can't discriminate. So would employers actually be 
acting illegally by not hiring women if we move forward with 
these kinds of regulations? Do you think that would actually 
happen?
    Ms. Furchtgott-Roth. Well, I think that what would happen 
would be that firms would change their technology, and we 
definitely do see that in Europe where there are not--where 
low-paid employment isn't allowed. So there are certain jobs 
that just don't happen in Europe; for example, valet parking or 
baggage carrying or something like that. There is a paper by 
Harvard professor Alberto Alesina that documents a lot of this. 
And so you find that basically technology changes, and these 
kinds of jobs disappear. The result of this is, if you can't 
get a low-paid job, you are stuck unemployed. And you not only 
have 10 percent unemployment in some countries of Europe, but 
half of these people have been unemployed for more than a year. 
They just cannot escape the unemployment pool. I am not 
suggesting that on this level it would happen yet.
    Mrs. Davis of California. Can you think of examples here 
where women were not being hired because we have put in place 
regulations such as this?
    Ms. Furchtgott-Roth. Well, we haven't put in place the 
regulations, so I cannot cite the examples. But whenever the 
cost of hiring someone goes up, people avoid--firms generally 
avoid hiring that kind of person. But if women were really 
underpaid, if they were really paid less for the same work, 77 
cents on the dollar, then some enterprising firm could just go 
out and hire all women and get ahead of the competition. We 
just don't see that happening. So it just goes beyond belief to 
think that women are systematically doing equal work and only 
being paid 77 percent of what men are being paid.
    Mrs. Davis of California. Dr. Boushey or Dr. Hill, would 
you like to comment?
    Ms. Boushey. It is also amazing to me that women do so well 
in school, that women now outnumber men on college campuses, 
and yet somehow the day that they leave school and go into the 
workplace, that is the day they decide to stop achieving or 
they stop asking for things.
    I think that we really have to look at the counter 
factually here. It seems there is something systemic going on 
in the labor force that is creating this situation. You know, 
we passed the Equal Pay Act in 1963. Since then we have seen 
significant and profound changes in women's labor force 
participation rates. It is not the case that women are now less 
likely to be employed today or less likely to be employed in 
higher-paying occupations. It is actually quite the opposite. 
As the courts and the legal system created more opportunities, 
women were out there and took them. And now we have a case 
where it is the case that most children grow up today in a 
family where all of their parents are at work, a lot of which 
is because of the kind of legislation that we are discussing 
here today.
    Mrs. Davis of California. Dr. Hill, quickly.
    Ms. Hill. I simply wanted to add that that is right. If we 
look at what the Title IX and Title VII--the kinds of 
achievements that have been gained, what we see is that when 
those laws passed, we saw many more women entering the 
workplace. We actually saw actually an economic boom at that 
time. We did not see the economy struggle. We saw that the 
economy actually did well. If you look at State differences, 
you see some of the States that have the most protective 
legislation, like California, for women and for men who want to 
parent and take time out of the workforce when they parent, 
those States actually have very robust economies relative to 
some of their other peers. So I think a State-by-State analysis 
could be very helpful.
    Ms. Furchtgott-Roth. But the legislation that was passed 
was equal pay for equal work. No legislation was passed that 
set wages for different kinds of jobs. The only country in the 
Western Hemisphere that has that is Cuba.
    Mrs. Davis of California. But the idea that somehow people 
would avoid hiring women because they would have to keep data, 
I think that seems to be embodied within some of the criticism. 
And obviously we would need to look carefully at that 
legislation. And I think we would need to move forward with 
that.
    I had some more questions, Mr. Chairman, but my time is up. 
Thank you very much.
    Mr. Kildee. The gentlelady from Hawaii Ms. Hirono.
    Ms. Hirono. Thank you very much.
    The underlying law that we are talking about, the Equal Pay 
Act, does focus on equal pay for equal jobs. We are not talking 
about comparable jobs. That is a whole other issue. So I am 
interested in focussing on the enforcement of the Equal Pay Act 
because the way the act is, although it is really for a very 
basic thing, equal pay for equal work, it is an act that is 
very hard to prove. And that is what the Paycheck Fairness Act 
is trying to do.
    So, for example--correct me if I am wrong, Ms. Farmer--even 
in your lawsuit, all Wal-Mart has to do is to say that their 
pay differential is for any other factor than sex, which is a 
very, very broad defense that they can assert; isn't that 
correct?
    Ms. Farmer. Yes.
    Ms. Hirono. Okay. So under the Paycheck Fairness Act then, 
one of the provisions of the act would be to say that you are 
not going to be--that the employer has to come up with more 
than just, you know, a differential based on any other factor 
than sex.
    Also, isn't it also reasonable that this act would prevent 
retaliation such as a kind of retaliation faced by Ms. Farmer? 
And also, isn't it reasonable that the act should have a full 
range of remedies as were provided in many other acts of this 
sort?
    So for Ms. Furchtgott-Roth--I am sorry if I am 
mispronouncing your name--you testified that this fairness act 
is a very radical idea. Now, the provisions that I cited, do 
you consider those radical provisions to enforce a law that is 
so basic?
    Ms. Furchtgott-Roth. The idea of equal pay for equal work 
has been around for decades. That is not radical, and we do 
currently enforce this law that is the EEOC, and there is the 
Office of Federal Contract Compliance before whom complaints 
can be made.
    What we are talking about is guidelines for different job 
categories. So section 7 says the Secretary of Labor----
    Ms. Hirono. Excuse me. You know, I was talking about the 
three specific areas of the law that lead to enhanced 
enforcement of EPA, and my question to you is whether those 
provisions are totally radical. I think you said as to the 
whole proposal, the Paycheck Fairness Act, that it is the most 
radical idea in American labor law today. Those three 
provisions and areas that I cited that lead to better 
enforcement of EPA, my question to you is whether you consider 
those provisions the most radical in labor law today?
    Ms. Furchtgott-Roth. When I said the most radical 
provisions in labor law today, I was referring to setting 
guidelines for different occupations. The punitive damages that 
would be imposed for discrimination probably are comparable to 
some other punitive damages provisions in other kinds of law 
today.
    Ms. Hirono. So you are not specifically talking about the 
provisions of the Paycheck Fairness Act that I am focusing on 
when you made that statement?
    Ms. Furchtgott-Roth. I was talking about the guidelines for 
setting wages for different occupations.
    Ms. Hirono. Thank you.
    I would like to ask any of the other testifiers if they 
would like to comment on my question. Ms. Hill?
    Ms. Boushey. I would like to comment on the idea that 
employees should be able to share their salary information 
without retaliation. I think Ms. Farmer here is a perfect--I 
mean, her case study is a perfect example of just how important 
that is.
    We also know, of course, that women who work in unions, 
oftentimes the gender pay gap is smaller. A big piece of that 
is because unions create an opportunity for salary information 
to be distributed and that information to be processed among 
the staff of the union. So I think there is evidence that that 
really can go far in helping employees understand the pay 
scales within their organization and then have the tools that 
they need to fight discrimination if they see it. So I think 
that that is a critical component, and it certainly isn't a 
radical one.
    Ms. Hill. I would simply second that, that the act that we 
are looking at today is not radical at all. It is simply making 
these laws more workable and giving us the same tools that we 
use for other forms of civil rights.
    Ms. Hirono. Thank you.
    Thank you, Mr. Chair.
    Mr. Kildee. The gentlelady from New Hampshire Ms. Shea-
Porter.
    Ms. Shea-Porter. Thank you. Thank you all for being here.
    You know, this kind of discrimination is easily noticed by 
those who live it and those who observe it in any manner 
whatsoever. And I have held a series of jobs--I put myself 
through college, and I recognize it when I see it. And so I am 
a little astounded that not everybody on this panel is seeing 
what we are talking about here.
    And so I would like to start with you, Ms. Furchtgott-Roth, 
and I apologize if I say your name wrong. Mine is hyphenated 
also. But you said when people find out they are being paid the 
same, they leave. You just said that. And then we have an act 
here that would require--or allow people to share their pay 
with other employees. Do you agree they should be allowed to 
share their pay amounts with other employees?
    Ms. Furchtgott-Roth. I think if an individual wants to 
disclose his or her pay to someone else, to a fellow, you know, 
colleague, I think that is fine. I don't think employers should 
be required to disclose everyone's pay. I think there are a lot 
of people who wouldn't want their pay disclosed for a whole 
number of reasons.
    Ms. Shea-Porter. Okay. But they should be allowed to 
without any retaliation, like apparently Wal-Mart did with Ms. 
Farmer? So Wal-Mart should not be allowed to penalize somebody 
if they wish to choose and tell people how much they earn, 
right? So you would agree with this part of the act?
    Ms. Furchtgott-Roth. I think that if one person wants to 
tell a coworker how much he or she earns, that is fine. But an 
employer shouldn't be required to make everyone's salaries 
public.
    Ms. Shea-Porter. Okay. How will they know? And I am not 
saying it should be that way, but what I am saying is that when 
people go into work, we know it. We know it in the field of 
social work because we see people who are receiving low wages 
and are working very hard.
    And I would also like to comment at this point about your 
testimony, your written testimony, because you are talking 
about pleasant jobs. Women choose more pleasant jobs such as 
teaching. And I would suggest that you have probably never been 
in a fifth grade or seventh grade class if you think that is 
pleasant.
    Ms. Furchtgott-Roth. I try to avoid volunteering at my 
children's school.
    Ms. Shea-Porter. And the other part of this--and all the 
way through the testimony, you use words like ``dirty jobs.'' 
and I keep thinking about the women I knew who were janitors at 
night and who worked in the day at the lunch room. And I 
remember the President praising some woman who was trying to 
explain how hard it was to work three jobs. She wasn't working 
three jobs because she wanted to prove that she was a hard 
worker, she was working three jobs because she had to, because 
she was stuck in low-paying jobs. So I think it bothered me to 
keep reading the words ``pleasant'' and then choosing time off 
and whatever, just the whole tone of the testimony.
    But getting back to what I am trying to say here, what I am 
concerned about is that if you don't know what you are being 
paid and what your coworker is being paid, you can't be certain 
that you are being discriminated against. And what would you 
propose in lieu of this to protect women who are being 
discriminated against?
    Ms. Furchtgott-Roth. Well, I think the right to privacy is 
very important, and I think a lot of people would be 
uncomfortable with their salaries being disclosed. And there 
are provisions in the law right now--and I am not a labor 
lawyer. I am an economist. There are provisions in the law 
right now for evaluating discriminatory claims, and if those 
need to be strengthened, you know, then that is a matter of 
Congress to strengthen. And I don't have any suggestions for 
remedies in the field of labor law that would do that.
    Ms. Shea-Porter. And that basically is always the problem 
when we look at these issues: You don't have remedies, but we 
know that something is wrong. And if you can't really even 
measure it because you don't have a way of looking at it, 
then--you know, I guess I was disappointed by some of the 
quizzing that some of the other panelists received because it 
is difficult to gather the data because of these blocks to 
information. I think it is critical that we get there and find 
out.
    I just wanted to say one comment. First of all, thank you. 
I certainly have seen this on every level, and I think that 
women who choose these jobs are choosing it for the good of our 
culture, the good of our families, the good of our society, and 
that they have a right and businesses have a responsibility to 
compensate them properly for it.
    And I wanted to say to you, Ms. Farmer, that I appreciate 
you bringing this to the attention. I realize this has been 
extremely difficult and has been prolonged, but this is the 
only way that women will get the--not just the dignity, but 
also the wages they need to feed themselves, feed their 
families, and to continue to progress along with men. So I 
thank you all for your testimony.
    Mr. Kildee. The gentleman from New Jersey Mr. Payne.
    Mr. Payne. Thank you very much. We have a fair system here. 
You see the man is last, and we don't get any preferences.
    Let me just ask a question to Ms. Farmer. In your testimony 
you stated that when you were promoted, you knew what the other 
folks were making; the men were making more. Did you raise a 
concern about this, and what did they say? I know you mentioned 
in your testimony about in and out.
    Ms. Farmer. When I was promoted?
    Mr. Payne. Yeah. And you saw that the pay was less. Did you 
raise the issue? And what did----
    Ms. Farmer. Absolutely. When I would train these people, 
men, and they had no qualms in telling me, I am making $30,000, 
and then I make $28,000, I went directly to my, you know, 
district manager a little later after I got the position and 
said, you know, I really don't think this is right. We really 
need to boost me up a little bit. And he just was like, 
``Right, we will think about it.'' ``okay, thanks.''
    Mr. Payne. Well, so in some instances I heard in a study 
that women generally don't speak up, and that is sort of a 
problem in general. And I guess if women speak up, they will 
say, well, you know, she is kind of pushy for a woman. So once 
again, you get caught up in the whole gender trap, right?
    Ms. Farmer. Somewhat. My parents always pushed me with if 
you believe in something, you do it, and you always tell the 
truth.
    Mr. Payne. Actually, you know, women live longer than men, 
so maybe they work longer than men. If you have a continually 
lower salary, I guess, as life expectancy goes on, then women 
fall further behind. I mean,you know, across the board, 
everybody gets 3 percent. Well, if you are, you know, 6 or 7 
percent less than the other people, then your 3 percent across 
the board is less, so it is almost--you know, they say, you 
know, the victory goes to the long distance runner, but the 
longer women run the further down the gap they get.
    I just have a quick question for Dr. Hill, something that 
has not been raised much, and I guess it is hard enough to get 
equal pay for equal work, but I have always had a concept about 
the question of equal pay for work of equal value. Now, that is 
different. For example, a person writes a book; a clerical 
person interprets it and types it up and edits it and corrects 
everything. In many instances, the transcriber may get just a 
clerical salary, but the book becomes, you know, a top seller, 
and the author and this ghost writer makes millions of dollars, 
but the people who are as responsible for it being a product 
that has so much value in many instances are not paid, in my 
opinion, for equal pay for work of equal value. Now, I am not 
saying they should get what the author gets, but has any 
tinkering been done about any jobs and categories and where 
women are and whether the pay categories seem to be proper in 
the overall scheme of things?
    Ms. Hill. There is one very important study that was done 
in the State of Minnesota where they looked at different job 
categories and found that, in fact, jobs with similar skills, 
similar kinds of experience and similar kinds of attributes 
were not being compensated fairly when you looked at it in 
terms of gender, and they were able to and did make some 
changes, so the public sector has certainly--there have been 
some improvements made. I will say some of the best employers 
are already doing these things. I think some of the best 
employers are looking at measures outside of productivity. So 
often productivity is measured simply in terms of hours at the 
office. That is one measure. The person who is working 80-hour 
workdays may be your most productive worker. He or she may not 
be. The person who is doing a very--who is maybe working more 
efficiently may be adding more who is working a 40-hour 
workweek. So I think that some of the best employers are 
already experimenting and looking at how to best think about 
productivity and to compensate people fairly.
    Mr. Payne. I know that my time is expiring.
    If you take the medical profession--hospitals, for 
example--you know, the people who have to mop the floor and 
keep infection rates down are very poorly paid, usually not 
even organized in labor unions. The LPNs, who really are doing 
what the RNs did before or even what the MDs did--of course, I 
am not knocking doctors, but they are sort of a vanishing 
person--you know, it is hard to see the doctor--but the LPNs 
and the RNs are not compensated in life saving jobs, especially 
LPNs, and so I do think that there is sort of a disparity 
between the equal pay for work of equal value.
    Thank you, Mr. Chairman.
    Mr. Kildee [presiding]. The gentlelady from New York, Ms. 
Clarke.
    Ms. Clarke. Thank you very much, Mr. Chairman.
    It is very stimulating testimony here today, and I wanted 
to talk about the fact that we recognize that equal pay is a 
compelling issue for our civil society in the 21st century. A 
lot of what my colleagues have stated, you know, remains a huge 
issue, and I wanted to sort of take the conversation in another 
dimension.
    Many of the families that we are talking about are headed 
by women of color, and women of color face an even larger wage 
gap than their white female counterparts. Tragically, white 
women earn 77 cents for every dollar a white man makes. African 
American women earn 67 cents for every dollar a white man 
makes, and Hispanic women earn almost 58 cents for every dollar 
earned by a white man. Unfortunately, educational attainment 
does not guarantee the wage gap will disappear. According to 
the 1999 Census Bureau report, African American women with 
bachelor degrees make only $1,545 per year more than white 
males who have only completed a high school education. So, as 
we go through this conversation today, I want to talk about the 
dimensions here and what this legislation can mean across the 
board.
    For women of color, educational success does not bear the 
economic fruits that it has for their white female counterparts 
or folks in general. In your opinion, why is this, and what can 
be done to address this issue?
    I put it to the panel.
    Ms. Hill. I will just begin by saying I think you are 
absolutely right, and thank you for bringing that dimension to 
our attention.
    In our particular study, we had a limited sample size, and 
so we were not able to make definitive statements on the basis 
of race and ethnicity. However, I think that such a study would 
be a very valuable thing to do, and if additional resources are 
put into collecting data so we over sample, then we will be 
able to say more and be able to talk about more dimensions of 
this problem, which I think you are very right to suggest there 
very likely are very significant differences.
    Ms. Boushey. To follow on what Dr. Hill said, I know data 
is incredibly important in this issue if you want to look at 
racial and ethnic minorities, and I know there are a number of 
issues that Congress is dealing with this year on providing 
sufficient funding for national surveys that allow us to study 
that, so that is important to this issue.
    I think you are right to point out that women of color 
continue to earn less relative to white women and that 
education is certainly not the only route out. I think a lot of 
the elements of the Paycheck Fairness Act really could help to 
bridge some of that gap because it would make it easier. It 
would make that information more accessible to women so that 
they could pursue those claims when they had them and take them 
to court as Ms. Farmer is doing.
    I think it is also worth noting--and I believe it was Mr. 
Payne who noted it--the fact that women of color are making 67 
cents on the dollar, and you know, we economists up here talked 
about all of the different adjudicating factors and education 
and all of that, but at the end of the day, that gap remains, 
and that explains why African American women continue to be 
more likely to be living in poverty and their children do, and 
so this is a pressing issue above and beyond many of those 
mitigating factors of education and experience.
    Ms. Furchtgott-Roth. This is a very serious problem, and we 
have to realize that the average rate of 67 cents on the dollar 
is comparing all African American women with all of our white 
males, and what is important is looking at like for like and 
adjusting for education and also adjusting for jobs, and we can 
figure out what true discrimination is if we take, say, an 
African American woman in the same job with the same experience 
and education as a white man and see the differences in pay, 
and that is illegal to pay those two people differently.
    But the problem with education--and education is a big 
factor in this. It is not just in college; it starts way back 
in elementary and secondary school where a lot of African 
American children are put in these schools that are of lower 
quality. They are not able to escape from those schools. They 
are trapped in these schools because their parents cannot 
afford to send them to private schools or they cannot move to 
the suburbs, and we need to have more school choice. We need to 
give their parents an opportunity to get them out of these low 
performing schools. We have had a lot of successful experiments 
with some charter schools, and I think that the 67 cents on the 
dollar is just a reminder to us that we need to be starting 
with elementary schools and secondary schools and give all of 
these kids opportunities early on in their lives so they have 
the same opportunities for school choice as white kids.
    Ms. Clarke. With all due respect, because my time is 
winding down, the statistics are talking about women who have 
attained their degrees compared with men who have just 
completed high school--that is the disparity--and it is very 
stark. So, with all due respect, I understand where you are 
coming from. I would like you to take a look at where I am 
coming from.
    Thank you very much, Mr. Chair.
    Mr. Kildee. The gentleman from Maryland, Mr. Sarbanes.
    We have a series of votes on in the House, so we will try 
to wind up soon.
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I am glad we are having the hearing today. It is an 
important issue. I think there is much that can be done 
legislatively to strengthen what is out on the books right now 
and improve that so that we can combat the kind of 
discrimination that we are talking about today.
    One of the arguments that will get made always in 
opposition to the kind of action that we are looking for is 
that it, you know, puts some undue burden on business, that 
government should not be legislating what happens inside the 
business community, inside the free market, et cetera.
    I was curious--and Dr. Hill, maybe you can take a stab at 
this--as to what are some of the best practices within the 
business community that address this issue that demonstrate 
that when businesses on their own act in a responsible way or 
maybe in response to this kind of legislation that in fact it 
leads to improved morale and it leads to improved productivity, 
et cetera, to demonstrate that, if we push hard on this front, 
it is not simply about doing the right thing for individual 
women who are suffering from this pay disparity, but it is 
actually going to improve things for the society and for the 
strength of our economy and lift us up across the board.
    Ms. Hill. Thank you. I think that is an excellent point.
    When we allow women to use their skills that they have been 
gaining--we have made enormous improvements and gains in 
educational achievement both among white women and also among 
African American and Hispanic women. We have made these 
enormous gains, and we need to be able to fully allow these 
women to participate in the workforce and to come back into the 
workforce when they do leave sometimes. If some of them do and 
when some of them do leave, allow them to come back into the 
workforce and use their talents.
    You asked for an example. I thought of Best Buy as an 
interesting example. Most recently, they have moved to a system 
where my understanding is that it is completely work flexible; 
you work as much and wherever you would like to work, and they 
have found that this program has improved their sales and has 
improved morale and has improved their productivity. So 
allowing workplace flexibility is not just a benefit for the 
families, but it has also proven to be a benefit for the 
businesses.
    Mr. Sarbanes. I would venture to say that businesses that 
are very enlightened in this area both with respect to pay 
equity and with respect to work flexibility are benefiting by 
accessing a workforce that otherwise is being left on the 
table, and there are so many talented people out there and 
talented women out there who are looking for the respect that 
comes from the compensation issues we are talking about but 
also who are looking for the work flexibility where, if you are 
a business that is prepared to accommodate that, the benefits 
are going to be huge to you.
    Does anybody else want to address the question?
    Ms. Boushey. If I could just comment for a moment on the 
productivity and turnover issue and a couple of other things.
    I think it is true that firms that tend to have more family 
friendly policies tend to have lower turnover, and turnover can 
cost workers thousands of dollars a year. Even at low wage 
firms in retail or sectors of the labor market, where we may 
not think of workers as having such important on-the-job 
skills, there is still an incredibly high cost of turnover, so 
lowering those costs are an important element for increasing 
productivity, and family friendly policies that increase 
flexibility and reduce discrimination certainly help to reduce 
turnover.
    A second issue is, particularly in the case of maternal 
leave, giving women pregnancy or maternity leave significantly 
increases the chance that a woman will go back to work at her 
same job within the 3- to 6-month period of her leave, and then 
over time she typically stays longer at that job compared to 
women who do not have leave. It is even more the case if she 
takes paid leave. That is a significant way of reducing 
turnover, is offering paid leave, which then of course does 
have these positive productivity effects within the firm.
    Ms. Furchtgott-Roth. One example of a practice used by a 
local company, Booz Allen Hamilton, is they have an outreach 
program for women who want to take time off after they have 
children where they keep in touch with them and invite them 
back for seminars to keep their training up, so that when they 
are ready to go back to work they are ready to slot in at a 
higher level of training than they would have been otherwise, 
and this is also found at other firms, too. It has been 
documented in a number of publications.
    I think that, in the basis of your question, you assumed in 
the question that pay disparity exists. I think this study from 
the AAUW does not prove that. There are a lot of studies that 
show that there is insignificant pay disparity between men and 
women when like jobs are compared with like jobs. Work 
experience and education accumulated with like hours of work is 
particularly important. So I think that you should not base any 
legislation on a premise that pay disparity exists, because it 
has not yet been proved.
    Mr. Sarbanes. The perception is certainly there, and I 
think the reality underlies it. I think where there is smoke 
there is fire, and we need to do what we can to put that fire 
out.
    Thank you, Mr. Chairman.
    Mr. Kildee. Thank you.
    The Chair recognizes the ranking member, Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    I thank the witnesses.
    I would disagree with my colleague that we cannot always 
chase smoke to find fire. We need to get to the core of the 
matter, and that is part of what this hearing was to do today 
so we could assess different views of the facts and different 
perceptions.
    One of the things we have heard a lot about today is the 
case of one of our witnesses--one employee dealing with one 
employer--and that matter, of course, is in court, and we do 
not have the results of that court action. So it is anecdotal, 
and it is a touching story, and certainly the allegations that 
we were not getting equal pay for exactly equal work would be 
illegal; but again that matter is in court and that 
determination has not been made.
    Second, we heard a number of discussions today about how 
the law needs to be changed to permit employees to discuss 
salary information or at least that is with other employees; at 
least that is what it sounded like, and I just wanted to point 
out for the record that the National Labor Relations Board has 
held under the National Labor Relations Act that an employer 
may not adopt a pay policy that prohibits employees from 
discussing their salaries in terms of employment. Pay policies 
that prohibit employees from discussing wages have been held to 
be a violation of their Section VII rights under the NLRA and 
have been found to be unlawful. So, again, under law, you are 
not prohibited from discussing it with each other. It is a 
different question whether or not the employer must provide all 
of that information to their employees.
    Again, I want to thank the witnesses. It was very 
interesting and very helpful, and I yield back.
    Mr. Kildee. Thank you very much, Mr. Kline.
    I, too, want to thank all of the witnesses for their 
testimony today, and in addition to the witnesses' supporting 
this act today, there are millions of other men and women out 
there in the country, including my wife and my daughter and my 
three granddaughters, but also my two sons and my three 
grandsons. They may not be statisticians, but they do live in 
the real world, and they are seekers after justice, and I want 
to again thank all of the witnesses.
    As previously ordered, members will have 14 days to submit 
additional materials for the hearing record. Any member who 
wishes to submit follow-up questions in writing to the 
witnesses should coordinate with the majority staff within 14 
days.
    Without objection, this hearing is adjourned.
    [The prepared statement of Business and Professional Women/
USA and Business and Professional Women's Foundation follows:]

     Prepared Statement of Business and Professional Women/USA and
              Business and Professional Women's Foundation

    Chairman Miller, Ranking Member McKeon and members of the 
Committee, thank you for this opportunity to provide written testimony 
on wage inequity and its impact on workingwomen, their families, and 
employers.
    Business and Professional Women/USA (BPW/USA) and Business and 
Professional Women's Foundation have a unique perspective on this issue 
in that we understand that working women are both employees and 
employers. Legislative solutions to workplace inequity must provide 
tools that support both the employee and employer, to level the playing 
field and provide opportunities that dismantle the systemic barriers 
that remain. We bring this perspective to our testimony today.
Background of Organizations
    Founded in 1919, BPW/USA is a multi-generational, nonpartisan 
membership organization with a mission to achieve equity for all women 
in the workplace through advocacy, education, and information. 
Established as the first organization to focus on issues of 
workingwomen, BPW/USA is historically a leader in grassroots activism, 
policy influence and advocacy for millions of workingwomen. BPW/USA's 
legislative platform focuses on the issues of workplace equity and 
work-life effectiveness. Pay equity undeniably falls within this focus 
making fair pay one of our top policy priorities. BPW/USA has long 
fought for equal pay as our members were witness to President Kennedy 
signing the Equal Pay Act into law. Today, the wage gap continues to be 
one of the greatest economic factors that affect workingwomen and 
families. Therefore BPW/USA remains committed to the pay equity issue 
by being the leading advocate to move legislation forward and educator 
for working women, and policy makers.
    In 1956, Business and Professional Women's (BPW) Foundation became 
the first research and education institution of national scope solely 
dedicated to issues that affect workingwomen. BPW Foundation utilizes 
the avenues of research, education, policy and knowledge development to 
achieve its mission: to empower workingwomen to achieve their full 
potential and to partner with employers to build successful workplaces. 
BPW Foundation encourages cross-sector collaboration between employers, 
research organizations, workingwomen and policymakers. This 
collaboration is based on the understanding that each sector plays an 
important role in creating successful workplaces for workingwomen and 
their employers by virtue of their ability to identify and act 
collectively upon common ground areas ready for change.
Women in the Workforce
    Workingwomen have made great strides in establishing themselves as 
an integral force in the American economy in the last five decades. The 
growing participation of women in the paid labor force was a critical 
factor in the economic growth of the United States during this time. By 
2006, women comprised 46 percent of the labor force increasing from 29 
percent in 1956 and 36 percent in 1976i. By 2002, women-owned employer 
firms employed 7.1 million workers and paid $173.7 billion in annual 
payrolls and accounted for 6.5 percent of total employment in U.Sii. 
Women comprised 46.3 percent of wealthiest Americans, by 2001, with a 
combined net worth of $5.8 trillioniii.
    The importance of workingwomen to the U.S. economy and to their 
families' incomes can not be underestimated. According to the U.S. 
Census Bureau the wages of men (under age 44) have undergone a steady 
decline. At the same time the real median income of families has risen; 
economists attribute this rise to the growth in women's labor force 
participation.iv Typically, women in dual-income households provide 
approximately one-third of the family income. Two-thirds of all 
families with children have all available parents at work; among prime-
age women (ages 25 to 45), 75 percent of women and 71 percent of 
mothers are in the labor force.v
    Additionally, workingwomen's continuing readiness to take on 
primary responsibility for addressing critical societal needs such as 
care giving for children, elders or ill family members or acting as 
volunteer leaders has fueled a shadow economy of unpaid work that 
contributes significantly to the economic and social well-being of 
communities and families. One estimate shows unpaid care giving (by 
women and men) for older or ill family members, alone, provides $257 
billion in services to the nationvi.
    Over the past 50 years, women in large numbers realized the 
individual accomplishments demanded of them at the start of the 
movement to achieve equity in the workplace: they received college 
degrees in ever increasing numbers, started their own businesses, made 
concerted efforts to move into nontraditional fields, mentored and were 
mentoredvii.
    Women are outperforming men at almost every educational level with 
88 percent of women in the 25-29 age group completing high school 
compared to 85 percent of men; women also now make up 58 percent of 
U.S. college students compared to 43 percent in 1970. Women have earned 
more bachelor's degrees than men since 1982 and more master's degrees 
since 1986. Within four years, it is estimated that women undergraduate 
and graduate students will outnumber men by 10.2 million to 7.4 
million. Women are also more likely to have higher grades than men. 
viii But still, women with graduate degrees earn only slightly more 
than men with only a high school diploma ($41,995 compared to 
$40,822).ix
    Yet with all of this progress the wage gap persists in the 21st 
Century.
The Persisting Wage Gap
    In a time when women make up nearly half the workforce, many think 
that the issue of wage inequity no longer exists. However, a recent 
deluge of corporate law suits disproves this view. A number of 
corporations such as Goodyear Tire, Smith Barney, Merrill Lynch, Wal-
Mart and Boeing have all faced sex discrimination lawsuits in recent 
years brought on by female employees asserting that their employers 
paid them less than men or did not promote them as quickly. These pay 
discrimination law suits brought media attention to an issue that 
continues to impact the paychecks of many workingwomen.
    The 2006 Census Bureau estimates that full time, year-round female 
workers make 77 cents for every dollar a male earns. For minority women 
this statistic worsens as African-American women make 66 cents, Latinas 
make 55 cents and Asian-American women make 80 cents. After stalling in 
the 1980's, at the current rate of change, it will be another 50 years 
before women achieve equal pay.
    Many women are aware of the wage gap and the enormous impact it 
will have on their financial lives; unfortunately some are not. 
According to economist Evelyn Murphy, over a working lifetime, the 
gender wage disparity will cost a woman between $700,000 and $2 million 
in lost wages, dependent upon her education level. Women know that the 
wage gap exists due to lost promotions and chronic discrimination. 
Economists believe that between 10 percent and 30 percent of the wage 
gap is attributable to discrimination.x
    Pay inequity is not a women's issue, but a family issue. Men have 
an equal investment in ending the wage gap for the sake of total 
household income and retirement savings. Today the majority of American 
families depend on the earnings of both parents to financially survive 
so rewarding equal pay for equal work would result in increased family 
incomes. As a result of the wage gap, women stand to lose significant 
amounts of money that could be used for their families and 
retirementxi. Lower pension and social security benefits that result 
from unequal pay cause this gap to follow women and their families 
throughout their lives.
The Power of Grassroots
    The goal of BPW/USA is to empower workingwomen to be strong 
advocates for themselves, in their workplaces, and on behalf of 
legislation like the Paycheck Fairness Act. Annually, BPW/USA members 
recognize Equal Pay Day in April by hosting events and activities 
across the nation to raise awareness of the wage gap. BPW/USA believes 
in the three pronged approach to addressing the issue of pay equity. 
This entails passing legislation to enact tougher laws, holding 
businesses accountable for unfair pay practices, and providing women 
with the knowledge and tools to empower themselves. BPW/USA educates 
women about the wage gap, what to do if they are being paid unfairly, 
and how to negotiate a better salary. While BPW/USA is reaching 
thousands of women through its signature conferences, grassroots 
programs and activities, there needs to be government supported 
programs and trainings educating a broad audience of women about the 
wage gap, and providing them with needed skills training.
Change in the Workplace
    As a neutral convener and independent research and education 
institution, BPW Foundation plays a unique and critical role in 
identifying opportunities for change and in building collaborative 
solutions.
    In the 21st century, workplaces are undergoing constant 
transformation. The forces reshaping America's workplaces contain a 
compelling opportunity for innovation, adaptation and change. Such 
change can enable the dismantling of the remaining barriers that block 
women's full and equitable participation in the workforcexii.
    An emerging workplace trend is the increasing realization that 
forces shaping options for workingwomen are, in fact, forces affecting 
everyone in the workplace including women, men, caregivers, entry-level 
workers, impending retirees, second careerists, people with 
disabilities and employers. Public policy, aimed at ending the wage 
gap, has the power to offer solutions and tools that can positively 
reshape the workplace for all employees and expand the labor pool for 
all employersxiii.
    Research conducted by BPW Foundation at its annual National 
Employer Summits has revealed that the causes of workplace 
dissatisfaction are often the same issues that create potential 
inequity in the workplace. Workplaces and workforces are wrestling with 
the changing realities of employees' lives and expectations, the 
demographic transformation of the labor force, the impacts of 
technology on work design, and the growth of global workplacesxiv. In 
the midst of this, employers striving to create diverse, equitable 
workplaces are faced with dismantling the systemic and cultural 
barriers that continue to block women's full and equitable 
participation in the workplace. Solutions to remove the structural and 
cultural barriers that stymie women's participation in the workplace 
necessitate the collaboration of policy makers, employers and 
workingwomen and requires a combination of public policy and voluntary 
practice-based solutionsxv.
The Need for Public Policy to Address Pay Inequity
    Ideally closing the wage gap should not occur as a result of 
legislative action, but because employers proactively pay their 
employees fairly. Unfortunately, many employers fall behind in 
monitoring their pay scales adequately, which is why Congress stepped 
in forty years ago to pass the Equal Pay Act.
    The Equal Pay Act was passed to help remedy the chronic employment 
discrimination taking place in the private industry. Lawmakers in the 
1960's knew that a law must be in place to bring fairness to a 
marketplace that was failing its workingwomen. While women have been 
able to take charge of workplace biases and discrimination by holding 
businesses accountable for their pay practices by filing under the 
Equal Pay Act, there are limitations to this law which have hampered 
progress.
    The marketplace alone cannot prevent pay discrimination, giving the 
government a significant role in ensuring fair workplace practices. 
Previous anti-discrimination laws like the Equal Pay Act, Civil Rights 
Act, Americans with Disabilities Act and Pregnancy Discrimination Act 
have each played a role in ensuring that people are treated fairly in 
the workplace. Congress is now in a position to take a proactive role 
in continuing the advancement women have made in the workplace and in 
ensuring that women are getting the paychecks and promotions they have 
earned through the Paycheck Fairness Act.
    This legislation addresses some of the remaining systemic barriers 
to women being paid fairly and provides employees and employers with 
the tools and skills to deal with them. Provisions within the Paycheck 
Fairness Act address two important ingredients to closing the wage gap. 
These include providing women with negotiation skills and avenues of 
redress when discrimination occurs, which support working women as they 
deal with the structural inequities and biases within many workplaces. 
The bill also offers some support to employers. Rather than putting the 
onus on early adopters of equitable work practices, the bill would 
spread the work among all firms by allowing employers equal access to 
guidelines developed by the Department of Labor, and by utilizing 
government researchers to gather and pool employer data on wages to 
establish benchmarks and track progress. It also provides the 
opportunity for employers to share their knowledge through a national 
summit, about the transformation of their workplace practices.
    The Paycheck Fairness Act would also educate a broad audience of 
women by establishing a competitive grants program to develop training 
for women and girls on compensation negotiations, and requiring the 
Department of Labor to reinstate equal pay activities and investigatory 
enforcement tools for cases of gender discrimination. Women who have 
better negotiation skills increase their chances of being paid and 
promoted fairly. However, they cannot receive this needed training 
without the passage of the Paycheck Fairness Act. The support of the 
Department of Labor will allow many working women to be exposed to 
strengthening their skills when negotiating salary for a new position 
or lobbying for a promotion.
    The Paycheck Fairness Act addresses many of these limitations, 
clarifies key definitions that have limited the court's willingness to 
intercede in unfair practices and provides workingwomen, researchers, 
and engaged employers with the tools and research they need to make and 
measure progress.
Suggestions for Paycheck Fairness Act
    To further strengthen the legislation and the ability of employees 
and employers to create win-win solutions in the workplace, we suggest 
the following:
    <bullet> The awards program focus on progress rather than effort. 
Existing awards programs that highlight employers of choice are coming 
under greater scrutiny with critics pointing out that these programs 
often give applicants a skewed vision of what is actually available in 
the workplace. Often programs or policies may exist that go unused by 
employees because of perceived cultural or systemic biases within 
firms. It is important that any recognition program focus on 
quantitative results in changing wage inequities and not simply on 
effort expended.
    <bullet> Incentives should be offered to employers to help offset 
costs for reviewing and transforming their human resource practices.
    <bullet> As partners in this change process, employers should be 
actively engaged in discussions about wage equity and workplace 
practices and the supports they need to create successful workplaces. 
The summit provision within the legislation is a good start. We 
encourage those developing legislation to engage more employers within 
the current development process to proactively address concerns and 
cost issues.
Conclusion
    Solving the wage gap will require women to be proactive about their 
negotiation skills, the passage of effective legislation and the 
realization by businesses that paying women fairly has benefits to the 
bottom line. For the sake of our daughters, it is time for American 
women to stand together and create positive change not only for 
ourselves, but for the financial future of our families.
                                endnotes
    \i\ ``The New Math of Unemployment,'' Time Magazine. November 1976.
    \ii\ ``Women in Business: A Demographic Review of Women's Business 
Ownership,'' Office of Advocacy, Small Business Administration. 2006
    \iii\ ``Personal Wealth, 2001,'' Statistics of Income Division, 
Internal Revenue Service, Barry W. Johnson and Brian G. Raub. 2005.
    \iv\ Society for Human Resource Management, 2006. www.shrm.org/
trends/visions/3issue2006/0306b.asp
    \v\ Equal Employment Opportunity Commission Hearing, Heather 
Bourshey, Center for Economic and Policy Research, April 17, 2007.
    \vi\ Expenditure Data from HCFA, Office of the Actuary, Levit K. et 
all., Health Affairs, 2002.
    \vii\ Forces Shaping 21st Century Workplaces and Workforces, BPW 
Foundation, 2006.
    \viii\ Society for Human Resource Management, 2006. www.shrm.org/
trends/visions/3issue2006/0306b.asp
    \ix\ Institute for Women's Policy Research, 2004.
    \x\ Society for Human Resource Management, 2006. www.shrm.org/
trends/visions/3issue2006/0306b.asp
    \xi\ The State of Work-Life Effectiveness, BPW Foundation, June 
2005.
    \xii\ Forces Shaping 21st Century Workplaces and Workforces, BPW 
Foundation, 2006
    \xiii\ 2006 National Employer Summit Report, BPW Foundation, 2007.
    \xiv\ Resources and Policy Changes Needed to Create Successful 
Workplaces, BPW Foundation, April 2006.
    \xv\ 2006 National Employer Summit Report, BPW Foundation, 2007.
                                 ______
                                 
    [Whereupon, at 11:55 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
